<html>
<title> - CLIMATE CHANGE IMPACTS ON NATIONAL PARKS IN COLORADO</title>
<body><pre>[Senate Hearing 111-94]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-94
 
                  CLIMATE CHANGE IMPACTS ON NATIONAL 
                           PARKS IN COLORADO

=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

   CONSIDER CLIMATE CHANGE IMPACTS ON NATIONAL PARKS IN COLORADO AND 
                     RELATED MANAGEMENT ACTIVITIES

                               __________

                    ESTES PARK, CO, AUGUST 24, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
52-524                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Frost, Herbert C., Associate Director for Natural Resource 
  Stewardship and Science, National Park Service , Department of 
  the Interior...................................................     5
Madden, Alice, Climate Change Coordinator, Office of the 
  Governor, Denver, CO...........................................    19
McCain, Hon. John, U.S. Senator From Arizona.....................     3
Saunders, Stephen, President, Rocky Mountain Climate 
  Organization, Denver, CO.......................................    25
Schimel, David, Ph.D., Senior Scientist, National Center for 
  Atmospheric Research, and Chief Executive Officer, National 
  Ecological Observatory Network, Inc., Boulder, CO..............    15
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1


          CLIMATE CHANGE IMPACTS ON NATIONAL PARKS IN COLORADO

                              ----------                              


                        MONDAY, AUGUST 24, 2009

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Estes Park, CO.
    The subcommittee met, pursuant to notice, at 12 p.m., in 
the Board Room of Town Hall, 170 MacGregor Avenue, Hon. Mark 
Udall presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. This subcommittee hearing will come to 
order.
    We want to welcome everybody. I have a short statement for 
the record, and then I'll turn to Senator McCain, and then 
we'll turn to hearing from our witnesses.
    The purpose of this afternoon's hearing of the Senate 
Subcommittee on National Parks is to consider climate change 
impacts on national parks in Colorado and related management 
activities.
    As chairman of the subcommittee, I understand that the 
impacts of climate change are a major management challenge for 
the National Park Service. I wanted to hold a hearing in 
Colorado because these impacts are an issue of particular 
importance, not only for Rocky Mountain National Park and other 
national parks and forests, but they also reflect an emerging 
area of concern for our agricultural communities, for our 
larger economy, and even pose implications for our national 
security. We will not address the full scope of global climate 
change at this hearing, but we will endeavor to look through 
this through the unique lens of the national parks.
    Our national parks are national treasures. They embody the 
diverse beauty of the American landscape, as well as our 
history and culture as a people. We must do all we can to 
preserve and protect them while also continuing to provide 
public access and enjoyment to future generations of Americans.
    There are a number of important issues facing our national 
parks, from budget shortfalls to increased use and recreational 
pressures. They are also not immune from the larger issues 
facing our Nation and the globe.
    To a large degree, our national parks are the canary in the 
coal mine when it comes to the on-the-ground effects of a 
warming climate, and that's especially true for our western 
parks and the park right down the street from this hearing 
room, Rocky Mountain National Park. It's clear that these 
impacts are real, significant, and can have lasting effects on 
our resources and our ability to protect them.
    So, today's hearing is focused on what is happening in 
parks due to climate change, how these impacts are being 
assessed and monitored, how these impacts my be affecting 
visitor experiences, and some thoughts on what we can do with 
the parks, directly, to help address these impacts.
    A wiser person than I described the challenge with these 
words, ``The threat to our world comes not only from tyrants 
and their tanks; it can be more insidious, though less visible. 
The danger of global warming is as yet unseen, but real enough 
for us to make changes and sacrifices so that we do not live at 
the expense of future generations. Our ability to come together 
to stop or limit damage to the world's environment will be 
perhaps the greatest test of how far we can act as a world 
community. No one should underestimate the imagination that 
will be required, nor the scientific effort, nor the 
unprecedented cooperation we shall have to show. We shall need 
statesmanship of a rare order. It's because we know that, that 
we are here today.'' That was Margaret Thatcher speaking in 
1990.
    Today, nearly 2 decades later, her words are still relevant 
and even more pressing. She was right about the challenge and 
right about the need for statesmanship. It's encouraging that 
we finally have an administration in Washington, DC, that is 
taking this issue seriously.
    I'm also fortunate to be joined today by a leader in the 
United States Senate who's shown statesmanship and courage on 
this issue and so many other issues, and that's Senator John 
McCain. Senator McCain and I took a brief tour of Rocky 
Mountain National Park this morning and, in addition to that, 
yesterday, we took a wonderful hike along the MacGregor Ranch 
periphery and met some very interesting wildlife. Probably the 
most interesting wildlife are the rock climbers----
    [Laughter.]
    Senator Udall [continuing]. Of whom I'm a member of that 
tribe. But, I know Senator McCain will speak to our experiences 
at some point. But yesterday and today, we had a chance to look 
at the climate change impacts that are occurring right in this 
national park.
    Now, unfortunately, the sorts of things we saw, such as 
trees killed by a bark-beetle epidemic that's been exacerbated 
by the warming climate, are not limited to this park, but are 
being felt throughout the national park system. I'm looking 
forward to learning about these impacts and the challenges we 
face in mitigating and confronting them. I intend to work with 
my colleagues on this committee and in the Senate and the 
Congress to respond to the needs and challenges presented by 
climate change and the myriad of other issues affecting our 
parks.
    Let me thank Mayor Pinkham and the Estes Park Town Board, 
for hosting us today, as well as Jackie Williamson, the town 
clerk, for all of her help getting us set up here in this 
important town of Estes Park.
    I'm very pleased to be joined by my good friend Senator 
McCain. We spent the previous 2 days in Grand Canyon National 
Park in northern Arizona. Senator McCain has graciously 
reciprocated, traveled up to our great State of Colorado. I'd 
like to turn to Senator McCain for his opening statement.

          STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR 
                          FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. Thank you for 
calling today's hearing to highlight the mounting affects of 
climate change on our national park systems.
    I also would like to thank the Estes Park mayor and city 
council, and all who made this hearing possible, and thank you, 
the citizens, for coming today and showing your concern on this 
very important issue.
    I might add a small item of trivia. This is not the first 
Chairman Udall that I have had the honor of serving with, and--
--
    [Laughter.]
    Senator McCain. I must say that, in every respect, the 
apple didn't fall very far from the tree, and I'm very grateful 
for the opportunity of serving with Senator Mark Udall.
    I, again, want to appreciate--express my appreciation that 
Secretary of Interior Ken Salazar, as well as Senator Udall, 
joined us in the Grand Canyon National Park, and it's a great 
pleasure to be here.
    We're not here today to discuss the complexities of cap-
and-trade legislation or to debate national energy policy. 
Today's hearing rises above politics as an examination of how a 
warming world is reshaping our cherished national parks.
    I've spent considerable time studying the issue of climate 
change, and a common misperception is that this is a crisis 
that's down the road, a future generation's problem, or that 
global warming is limited to the distant reaches of the Earth. 
I've traveled the globe to see firsthand how it's changing the 
lives of people in Alaska, Australia, New Zealand, South 
America, Norway, and other parts of the Arctic region. But, the 
startling reality is, you no longer need to journey to faraway 
places to experience the effects of climate change.
    A report released last month by the United States Global 
Change Research Program, which is a consortium of experts from 
13 United States Government science agencies, several major 
research institutions, offers the most up-to-date scientific 
findings, which reaffirm, with even greater clarity and 
persuasiveness, that which we already know: climate change is 
real. It's happening now, and it's happening right here in the 
United States of America.
    Average United States temperature has risen by 1 and a half 
degrees Fahrenheit over the last 50 years. Winters are now 
shorter and warmer than they were 30 years ago. With the 
largest winter temperature rise, more than 7 degrees 
Fahrenheit, observed in the Midwest and northern Great Plains. 
In the Southwest, warming has been among the most rapid and 
severe, driving declines in spring snowpack and affecting 
measurable changes to Colorado River flow.
    But, this issue has gone beyond calculating temperature 
averages and projecting computer models. When it comes to the 
visible signs of climate change in the United States, our 
national parks--our national parks--have been likened to the 
miner's canary. Just over the past two decades, warmer and 
shorter winters linked to global warming have intensified bark-
beetle outbreaks, as you can see every day, and doubled tree 
mortality rates in seemingly healthy conifer stands in much of 
the West, including in the Grand Canyon and the Rocky Mountain 
region. In the Virgin Islands National Park--the Virgin Islands 
National Park--abnormally elevated water temperatures in the 
Caribbean are contributing to coral bleaching. In Apostle 
Islands National Park, a loss of winter ice in the Great Lakes 
is disrupting fish reproduction and bird habitat. In the 
Sonoran Desert, longer summers and prolonged drought are 
fueling cactus-killing brush fires and prompting invasive plant 
growth at places like Saguaro and Joshua Tree National Parks.
    These are but a few examples of the changes that we're 
seeing in our Nation's 58 national parks and over 300 national 
monuments, trails, and other park units.
    In 2016, the National Park Service will celebrate its 100th 
anniversary. As our world continues to warm, we must ask 
ourselves, What will our parks look like in another 100 years? 
What will become of their native wildlife habitat? How do we 
adopt our management practices to preserve our parks for the 
enjoyment of future generations? How will already complex 
issues, like balancing recreation with natural beauty, become 
even more challenging in the face of decreased snowpack or 
prolonged drought?
    Again, Mr. Chairman, I'm equally interested to hear from 
today's witnesses about the changing conditions of our national 
parks. Climate change necessitates that we rethink park 
conservation, and I thank you for raising awareness about this 
important issue, and I thank the witnesses for being here 
today.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator McCain.
    Before we hear from this exciting and well-informed expert 
panel, let me speak to a few administrative issues.
    This is a formal subcommittee hearing; it's not a town-hall 
meeting. As such, we will take testimony from select witnesses, 
and we will not be taking public comments or questions. 
However, if you want to submit written testimony for the 
hearing record, you may do so by sending it to the subcommittee 
in Washington or to one of my offices here in Colorado. We will 
keep the record of the hearing open for 2 weeks following 
today's hearing, so you could summit those comments.
    Let me add one last note. This is an important hearing on 
the topic at hand, but if you have other comments or questions 
that you don't want to make a part of the official 
congressional record for the hearing, we have distributed 
comment cards throughout the room, and I'd like to hear from 
you. Fill it out. I have a number of my staff members here. We 
take your comments and your input very, very seriously.
    So, with that, we're going to turn to our panel of experts. 
I'm going to ask each of them to summarize their written 
testimony in a--generally, a 5-minute timeframe. Your full 
written testimony will be made a part of the official committee 
hearing record.
    Let me do this, I'll introduce each panelist in turn, so 
that, as you prepare to give your remarks, the audience is 
clearly aware of your background and your interest.
    So, we'll start with Dr. Herbert Frost, who's the associate 
director for the--natural resource stewardship and science for 
the National Park Service and the Department of the Interior.
    Dr. Frost, the floor is yours for 5 minutes.

 STATEMENT OF HERBERT C. FROST, ASSOCIATE DIRECTOR FOR NATURAL 
   RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Frost. Mr. Chairman, Senator McCain, thank you for the 
opportunity to appear before you today to present the views of 
the Department of the Interior on climate change impacts to the 
national parks across the Nation, including Colorado.
    Because of the close link between this community and Rocky 
Mountain National Park, we are pleased that you chose to hold 
this field hearing here in Estes Park. Just like to also say 
that it was a pleasure to spend some time with you and Senator 
McCain this morning out in the park, to actually see the 
effects of what's going on there. Oftentimes, we talk about 
these things in boardrooms and committee rooms, and we don't 
get out on the ground to see what's going on, and it's a 
refreshing pleasure to have had that experience with you today.
    Climate change is potentially the most far-reaching and 
consequential challenge to the National Park Service mission in 
our history, challenging the foundation of the national park 
system and the ability to leave America's natural and cultural 
heritage unimpaired for future generation.
    Parks are already experiencing impacts from a changing 
climate. Warming temperatures are accelerating the melting of 
glaciers and snow fields in parks like Glacier and North 
Cascades and throughout Alaska. Alaska parks are experiencing 
dramatic effects. Melting sea ice threatens marine mammals and 
coastal communities. Thawing permafrost can destabilize 
buildings, roads, and facilities.
    Coastal parks are also extremely vulnerable. The NPS 
manages 74 coastal units, encompassing more than 5,100 miles of 
coast, and over 3 million acres of marine resources, including 
beaches, wetlands, estuaries, coral reefs, and kelp forests. 
Sea-level rise threatens the remains of some of the earliest 
human-occupation sites, dating back over 10,000 years.
    Here at Rocky Mountain, high temperatures and drought have 
triggered a bark-beetle outbreak visible in the dead and dying 
pine trees in the West Slope, and the skeletons of 800-year-old 
limber pines. Warming temperatures are also a factor in the 
expansion of one of the West's most noxious weeds. Cheatgrass 
is now found at elevations in the park up to 9,500 feet. 
Preliminary data suggests that picas are also being affected 
because they don't tolerate high temperatures.
    As climate warms, mountain ecosystems become more 
fragmented, making it harder for other species, such as elk and 
big-horn sheep, to migrate, or connect to subpopulations, 
potentially compromising the genetic integrity and health of 
those populations.
    To effectively respond to these challenges of climate 
change, the Department is undertaking a collective and 
coordinated strategy that builds on and expands existing 
partnerships.
    Adaptation planning and implementation is a critical area 
for the future. This involves building our science information 
and ecosystem monitoring capacity for sound decisionmaking by 
park managers. Begun almost 9 years ago, the National Park 
Service Vital Signs Monitoring Program is strategically 
positioned to help parks acquire the information they need to 
make informed decisions so that park managers can be flexible 
in the face of climate change. Toward this end, the National 
Park Service is working with the USGS and other partners toward 
a scenario-planning approach designed to help manager 
identify--managers identify policies and actions that will be 
most effective across a range of potential futures. Four case 
studies have already been conducted, and 12 more are planned in 
2010. The NPS is also leading by example in reducing our carbon 
footprint and promoting sustainable operations. Energy Smart 
Parks and Climate Friendly Parks are two of these key programs.
    Climate Friendly Parks was created with the Environmental 
Protection Agency, in 2003, to promote sustainable operations 
and create climate action plans to reduce greenhouse gas 
emissions. Almost 60 parks, including Rocky Mountain, now 
participate.
    The Pacific West region has a very ambitious leadership 
initiative that supports--that also supports reducing our 
carbon footprint. The 58 parks in the region have set a target 
of carbon-neutral for park operations by 2016, and they now 
generate over 4 percent of their energy from renewable 
resources.
    Parks can also serve as a platform to effectively 
communicate about climate change. With 275 million visitors 
annually, the NPS is ideally positioned to raise awareness and 
provide information about solutions. A number of efforts are 
underway, including a monthly Web-based seminar featuring 
climate change experts; a climate change wildlife and wildlands 
toolkit for K-12 students; a series of biogeographic impact 
summaries with focus on national parks and refuges; and some 
pilot-interpretive products and training, such as those that 
have been developed here at Rocky Mountain.
    Looking forward, the NPS has a goal of every park having 
climate change information available through brochures, wayside 
exhibits, interpretive programs and handouts and park Websites. 
While efforts to date are significant, much work lies ahead. 
The Park Service must position itself to respond to the effects 
of climate change on park resources and to prescribe management 
actions that are suitable for parks. National parks are 
environmental baselines to track changes, and they stand as 
some of the last vestiges where ecological components function 
naturally. In order to protect these treasured landscapes, we 
must take responsibility for understanding how climate change 
will impact the national parks, develop science-based plans for 
adapting, and take steps to improve the resiliency of natural 
systems by reducing other stresses on park.
    Finally, the Department and the NPS must lead by example in 
minimizing our carbon footprint, promoting sustainable 
practices, and communicating both the scientific evidence and 
the choices we make to our partners and the public.
    Mr. Chairman, this concludes my statements. I'll be pleased 
to answer any questions.
    Thank you.

  Prepared Statement of Herbert C. Frost, Associate Director, Natural 
Resource Stewardship and Science, National Park Service, Department of 
                              the Interior
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present testimony on the role of the Department of the 
Interior (DOI) and the National Park Service (NPS) in addressing 
climate change impacts on National Parks in Colorado and related 
management activities. Accompanying me today are Dr. Leigh Welling, 
Climate Change Coordinator for the National Park Service and Vaughn 
Baker, Superintendent of Rocky Mountain National Park.
    Secretary Salazar has prioritized the issue of climate change 
within the Department of the Interior. He is in the process of 
designing a climate change strategy to integrate the work of each 
Bureau to mitigate and adapt to the effects of climate change in the 
pursuit of each Bureau's mission-this includes the National Park 
Service, Fish and Wildlife Service, United States Geological Survey, 
Bureau of Land Management, Bureau of Indian Affairs, Bureau of 
Reclamation, and Minerals Management Service. In 2008 the Department of 
Interior had a multi-agency taskforce that put forth a number of 
recommendations relating to climate change adaptation and mitigation 
activities. The Department works closely on many levels with the 
National Oceanic and Atmospheric Administration (NOAA) and the United 
States Forest Service (USFS) in addition to other federal agencies in 
coordinating activities relating to climate change.
    An integration of science, adaptive management tools, and other 
resources across the Federal Government is essential to the DOI's 
mission to address climate change across all federal lands, wildlife, 
and cultural and natural resources (including mitigation, adaptation, 
and communication/engagement strategies) and to the NPS' mission to do 
the same. We are pleased that you chose Estes Park Colorado as the site 
of this field hearing. This mountain community is inextricably linked 
to Rocky Mountain National Park and the loss of resources due to 
climate change affects both the park and the surrounding towns and 
their economies.
    Climate change is potentially the most far-reaching and 
consequential challenge to our mission than any previously encountered 
in the entire history of the NPS. In setting aside Yellowstone National 
Park in 1872, Congress stated that the purpose of the park was:

          preservation, from injury or spoliation, of all timber, 
        mineral deposits, natural curiosities, or wonders, within the 
        park, and their retention in their natural condition.

    This concept of ``retention in their natural condition'' became the 
cornerstone of our National Park System when Congress passed the 
National Park Service Organic Act, which states that the mission of the 
NPS is:

     . . . to promote and regulate the use of the . . . national parks 
. . . which purpose is to conserve the scenery and the natural and 
historic objects and the wild life therein and to provide for the 
enjoyment of the same in such manner and by such means as will leave 
them unimpaired for the enjoyment of future generations.

    Climate change challenges the very foundation of the National Park 
System and our ability to leave America's natural and cultural heritage 
unimpaired for future generations. Our national park units can serve as 
the proverbial canary in the coal mine, a place where we can monitor 
and document ecosystem change without many of the stressors that are 
found on other public lands.
    DOI and the NPS are rising to this challenge, and today my 
testimony will focus on four major areas. First, our observations of 
the effects and potential future changes related to climate change in 
national park units. Second, the actions and programs we have underway 
to prepare for the current and anticipated changes from climate change. 
Third, some of the actions the NPS plans to undertake in the coming 
years. Fourth, some other considerations related to climate change.
          the effects of climate change in national park units
    Parks are already experiencing some dramatic impacts that may be 
resulting from climate change. Warming temperatures may be accelerating 
melting of mountain glaciers in national parks such as Glacier and 
North Cascades while perennial snowfields throughout Alaska are 
disappearing. Reduced snowpack and changes in the timing and amount of 
stream flow affect aquatic communities. Alaskan parks are seeing some 
of the earliest impacts of possible climate change--melting sea ice 
threatens marine mammals as well as coastal communities, while thawing 
permafrost can destabilize buildings, roads, and facilities and disrupt 
the structural basis of large regions of interior lands. In Yosemite 
and Great Basin National Parks, we have documented high-elevation 
species, such as the pika and alpine chipmunk, moving upslope, thereby 
reducing the effective area for their survival; this upslope migration 
may be attributable to changes in climate.
    Here at Rocky Mountain National Park (park) high temperatures and 
drought have contributed to a bark beetle outbreak unprecedented in the 
park's history. The effects are noticeable in the red lodgepole, 
limber, and ponderosa pine trees most visible on the west slope and in 
the skeletons of 800 year-old limber pines. Dead trees have replaced 
much of the green canopy that shaded park campgrounds. The park has 
committed to removing approximately one million hazard trees over the 
next five years to ensure human safety around buildings, parking lots, 
and other developed areas. The USFS is tackling this problem outside of 
park boundaries.
    Fire frequency and intensity may also be related to climate change. 
NPS data indicates that fire ignitions are occurring both earlier and 
later in the season now and the average duration of time that a 
wildfire burns has increased from less than 10 days to more than a 
month. Fires in some places may be increasing in frequency and 
intensity, threatening native plant communities and contributing to the 
spread of invasive exotic species (Westerling et al. 2006). Wildland 
fire frequency and intensity can have a significant impact on cultural 
resources, as hotter fires and our efforts to fight them directly 
damage buried archeological sites.
    Ongoing climate changes are expected to include modified patterns 
of precipitation and runoff, and changes in hydrologic regimes and the 
availability of water to park ecosystems. Recent literature on climate 
change suggests: increased precipitation, streamflow, and runoff in the 
Northwestern and Eastern United States will increase flood risks; 
warming temperatures will reduce mountain snowpack, and cause earlier 
spring snowmelt runoff across the Western United States and Alaska; and 
drought severity and duration will intensify in the Western and 
Southwestern United States. (IPCC 2007)
    Here in Colorado it is expected that the amount of precipitation 
stored as snowpack will decrease, and annual snowmelt will commence 
earlier in the spring with the overall effect of decreasing the volume 
of water available annually for storage in Colorado River basin 
reservoirs (IPCC 2007). It is also thought that there will be increased 
year-to-year variability in basin hydrologic conditions and decreased 
certainty as to the amount of annual water production (Guido 2008 and 
Knowles et al 2006). Given the present allocation of Basin water 
resources and the ever increasing demand for water in the Southwest, 
even moderate decreases in streamflow will present challenges to both 
water and park resource managers.
    Coastal parks are extremely vulnerable to climate change. The NPS 
manages 74 coastal units encompassing more than 5,100 miles of coast 
and three million acres of submerged resources including beaches, 
wetlands, estuaries, coral reefs, and kelp forests. These parks attract 
more than 75 million visitors every year, and generate over $2.5 
billion in economic benefits to local communities. The United States 
Climate Change Science Program Synthesis and Assessment Product on 
Coastal Sensitivity to Sea Level Rise (2009) states:

          Critical coastal ecosystems such as wetlands, estuaries, and 
        coral reefs are particularly vulnerable to climate change. Such 
        ecosystems are among the most biologically productive 
        environments in the world.

    These coastal ecosystems are significant habitats for the 
production and health of recreationally and commercially valuable fish 
and shellfish, they provide important environmental services, and offer 
beautiful landscapes for marine recreation and wildlife watching. A 
major finding of the United States government's recently-released 
landmark report, Climate Change Impacts in the United States (2009), is 
that these ecosystems are predicted to undergo significant stress as a 
result of climate change
    Shorelines and park boundaries will change as sea level rises 
resulting in a net loss where parks cannot migrate inland. At 
Everglades National Park, rising seas may overwhelm the mangrove 
communities that filter out saltwater and maintain the freshwater 
wetlands. Indeed, changes have already been observed as coral bleaching 
and disease caused by increased sea surface temperatures led to the 
loss of more than 50 percent of reef-building corals in the Virgin 
Islands park units since 2005 (IPCC 2007, Hoegh-Guldberg 1999, 
Buddemeier 2004). Increasing the resilience and adaptive capacity of 
coastal ecosystems will be critical to maintaining their enormous 
biological value and ecological services to the Nation and local 
communities. NPS's Organic Act uniquely positions us to work 
cooperatively with other federal agencies, states, local agencies and 
the public to address the cumulative impacts of overfishing, pollution, 
and coastal development that increase the vulnerability of these 
valuable ecosystems to the effects of climate change.
    While some impacts from climate change are already measurable, the 
long-range effects of climate disruption on park natural and cultural 
resources, infrastructure, and visitor experience are just beginning to 
be understood. The policy implications for protecting species in a 
rapidly changing climate are complex and without precedent.
    Cultural resources will also be significantly affected by climate 
change, primarily due to increased erosion from rising seas and more 
intense storm (and hurricane) surge. Rising sea levels are already 
damaging archeological sites, historic structures, and cultural 
landscapes such as Fort Jefferson in the Dry Tortugas and Jamestown. 
Sea level rise and storms threaten the tangible remains of some of the 
earliest human occupation sites, dating back over 10,000 years, along 
the west coast, as well as associated Native American burial grounds at 
places like Channel Islands National Park and shell middens on the Gulf 
Coast of Everglades National Park. Alternately, decreasing lake levels 
expose vulnerable archeological resources and critical park 
infrastructure in places like Lake Mead National Recreation Area. Our 
Nation's maritime history, including lighthouses from Massachusetts to 
Oregon, historic forts including Fort Jefferson and Fort Sumter, and 
historic coastal communities also face threats from rising seas and 
more intense storm surges.
    The 1980 Alaska National Interest Lands Conservation Act (ANILCA) 
created 10 Alaskan parks and expanded parklands by 43 million acres. It 
also recognized the critical importance of access to subsistence 
resources found in parks, including fish, game, and plants, to both 
Native and non-Native residents of rural Alaska, and directly linked 
this access to their continued physical, economic, social, traditional, 
and cultural existence. While the threats that climate change poses to 
salmon, caribou, and seals may be viewed as threats to natural 
resources, they also clearly challenge our ability to provide 
appropriate subsistence opportunities to local rural residents around 
our units in Alaska.
    Many questions exist regarding how physical processes, species 
populations, and ecosystems will respond to a changing climate. The 
science of predicting the complexities of these interactions over 
relatively long periods of time is highly uncertain, yet the NPS is 
committed to working with our sister agencies within the Department to 
understand and monitor the effects of climate change on park resources 
and ecosystems. The focus of the climate change discussion has largely 
shifted from the evidence to what we can do about it. As stewards of 
our Nation's natural and cultural heritage, we have an obligation to 
act now.
     the effects of climate change at rocky mountain national park
    Twenty years ago cheatgrass, one of the west's most noxious weeds, 
occurred only below 8,000 feet. It is now found at elevations in Rocky 
Mountain National Park up to 9,500 feet (Pilkington 2009). Although 
climate change is likely not the only factor in its expansion, this 
weed overwinters as a seedling and is therefore poised to take 
advantage of the warm spring weather typical of our changing climate.
    Ungulates are also responding to changes in their environment. This 
year the park embarked on a plan to manage elk and vegetation. The plan 
was needed because with the absence of predators and loss of historical 
migration routes elk have been overbrowsing in their park winter range. 
Elk winter range includes riparian areas that historically were centers 
of biodiversity and beaver constructed water storage. Restoring 
wetlands to full health is crucial to helping many species adapt to 
changing conditions because healthy ecosystems are generally more 
resilient to change. Scientists studying climate change and public 
lands repeatedly note the importance of minimizing other ecological 
stressors, such as overbrowsing and air pollution (Julius 2008).
    Published evidence indicates that recent warming may have resulted 
in a pulse of nitrate appearing in a watershed monitored within the 
park. This nitrogen release is believed to be a sign that old ice, 
perhaps thousands of years old, is melting from between the rocks in 
alpine watersheds exposing weathering products previously covered by 
ice (Baron 2009). To date, rock glacier ice has helped buffer streams 
during drought periods. With climate warming hydrologists expect that 
this ice will melt completely and late season stream flows will be 
greatly diminished (Baron 2009).
    Our trees are also rapidly changing. United States Geological 
Survey (USGS) biologists used long-term records from late successional 
land to document significant trends in earlier tree death without the 
compensating growth of young seedlings. Although work continues to more 
definitively tie tree death to climate change, foresters are very 
concerned about these findings because North American forests are 
generally shown in climate models as carbon sinks. Tree death, whatever 
the cause, results in carbon release. The widespread pattern of tree 
death, including death due to insect attacks and fire, means that 
models may need to be adjusted to reflect another net source of 
greenhouse gas (van Mantgem 2009).
    Pikas, or rock rabbits, delight park visitors every year but are 
especially sensitive to warming. Because of their warm coats, they are 
unable to tolerate temperatures above 78 degrees Fahrenheit for even an 
hour. Last year seven known historic locations for pika in the park 
were checked and pikas were still present in five locations but missing 
in two, the lowest (and warmest) sites. Although investigations 
continue, this preliminary data suggests pikas are being affected 
(Peterson 2009). As climate warming proceeds, alpine environments will 
likely become smaller and more fragmented, making it harder for true 
alpine species, such as pika, to migrate or connect with others of 
their kind.
    Rocky Mountain National Park is a Climate Friendly Park with a 
commitment to reduce greenhouse gas emissions by 17 percent below the 
2005 level of 3,540 metric tons by 2017. In 2007 the park formed a 
Green Team. The team provides an interdisciplinary approach to assist 
in implementing sustainable practices, promoting environmentally 
responsible behavior, and to help the park serve as a role model for 
environmental stewardship. Important outreach through 
DoYourPartParks.org and messaging in various venues (including 
podcasts, park newspaper, and shuttle buses) continues to inform park 
visitors and staff about ways they can minimize impacts to their 
Climate Friendly Park.
    The park has recently qualified for DOI-NPS energy audit funding to 
identify priority energy efficiency and renewable energy projects. With 
the approved funding, the audit will be conducted by a utility company, 
audit contractor, or through the University National Park Energy 
Partnership Program. The park is working to partner with Colorado 
universities and/or the National Renewable Energy Laboratory to refine 
energy efficiency and renewable energy project designs.
    An aggressive in-park program and funds provided under the American 
Reinvestment Recovery Act (ARRA) are changing the park's fleet. In the 
past three years the park has purchased 10 hybrid vehicles. GSA ARRA 
funds will be used to replace up to 57 of the park's 141 low efficiency 
park vehicles with higher efficiency vehicles. The park's shuttle 
system was expanded in 2005 and again in 2008 to add/connect the Town 
of Estes Park to the park's hiker shuttle and the Alpine Visitor Center 
tour.
    A partnership with Larimer County has converted the park's 
recycling system to single-stream recycling, allowing for more 
materials to be recycled. Also, multiple efficiencies to park 
facilities have been implemented including: tankless on-demand hot 
water heaters, solar lighting tubes, energy efficient lighting, 
recycled asphalt used on park roads projects, energy efficient 
generators at Alpine Visitor Center, the Green Rehabilitation of the 
park's employee laundry facility, and more.
       the effects of climate change at mesa verde national park
    Over the past two decades, Mesa Verde National Park has experienced 
the impacts of several events; some natural and some that may be tied 
to human-induced climate change impacts, the results of which may 
affect the integrity of the park's ecosystem. Since 1989, the park has 
endured six wildfires covering approximately two-thirds of the park's 
acreage. NPS staff surveys suggest that several species have either 
declined or disappeared from this habitat. In areas that have not 
burned, persistent record-breaking drought has weakened trees to the 
point where many that survived the wildfires have succumbed to forest 
pathogen outbreaks. This has led to a situation where continuing 
drought leads to wildfires, which weakens trees' defenses and in turn 
leaves them vulnerable to disease and increased insect damage. This 
cycle can fuel more fires. Also, these fires have damaged historic 
structures and threatened the loss of archeological sites according to 
NPS data.
    Due in part to the deforestation caused by wildfires, Mesa Verde 
has experienced two waves of establishment and proliferation of 
invasive non-native weeds (Floyd et al 2006). Biologists have 
identified some highly aggressive colonizers such as thistles, 
knapweeds, pepperweed, cheatgrass, and other species. The large amount 
of park acreage impacted by the recent wildfires provided these species 
with the perfect opportunity to spread throughout the park. Invasive 
weeds can alter an area by, among other things, disrupting the natural 
food web, promoting soil erosion, and interfering with natural plant 
succession. Rapid deforestation promptly followed by non-native weed 
infestation can quickly convert rare native forests into an impaired 
landscape. These impacts have also affected such federally-listed 
species as the Mexican spotted owl and its habitat (Johnson et al 
2008).
    The park has made some important efforts to slow down the spread of 
invasive weeds. Direct control of weeds with mechanical, chemical, and 
biological control tactics have been applied in some areas in some 
years. Several larger areas burned in recent wildfires have been 
treated by aerially seeding with native grasses to quickly reestablish 
competitive native species. This has been proven to be very cost 
effective if done promptly after wildfires. But, in the long-term, the 
park's forests may not fully recover if the extreme heat and dry 
conditions become the new normal.
 the effects of climate change at colorado national monument and great 
                 sand dunes national park and preserve
    At Colorado National Monument, a National Weather Service station 
has been collecting climate information since 1942. Records indicate a 
3 to 5 degree Fahrenheit rise in temperature during that time. The 
long-term research being conducted at the park includes impacts to old 
growth pinion and juniper forests in addition to broader ecosystem 
impacts. This extensive inventory and monitoring work feeds into the 
NPS Inventory and Monitoring Network databases.
    Great Sand Dunes National Park and Preserve is undertaking many 
projects that address potential climate impacts to the park's 
ecosystems. Those include acid rain monitoring and monitoring wet and 
dry depositions in the form of snow chemistry which will give vital 
information in regards to air quality conditions. The park is 
partnering with USGS to look at the response of pikas to climate change 
as well as monitoring white pine blister rust occurrence.
              current climate change actions and programs
    To effectively respond to the challenges of climate change, the DOI 
is undertaking a collective and coordinated strategy that builds upon 
and expands existing partnerships such as those between NPS, other 
bureaus, parks, regions, and national program offices. Building the 
capacity to respond to climate change will involve identifying, 
linking, prioritizing, and implementing a range of short and long-term 
activities. The complex and cross-cutting nature of this issue will 
require an unprecedented level of cooperation across the DOI Bureaus, 
other federal and state agencies, the entire NPS, and our partner 
organizations.
    Because climate change has been identified as one of highest 
priorities for the NPS, many actions and activities have already been 
undertaken at parks and within regions. The NPS is now in the process 
of developing a strategic framework for action that will detail short 
and long-term actions in three major areas: mitigation, adaptation, and 
communication. The NPS has hired a Climate Change Coordinator and 
created six working groups--Legal & Policy; Planning; Science; Resource 
Stewardship; Greenhouse Gas Emission & Sustainable Operations, and 
Communication. We will use the information from these groups to develop 
a strategic framework for action that will address park, regional, and 
national-level needs and concerns.
    Over the past three years, the NPS has hosted or participated in a 
series of regional and interagency workshops to explore climate change 
impacts and coping strategies. In conjunction with the Environmental 
Protection Agency in 2003, the NPS initiated the Climate Friendly Parks 
Program to promote sustainable operations in parks and create climate 
action plans to reduce greenhouse gas emissions; almost 60 parks, 
including Rocky Mountain National Park, now participate. The NPS also 
requires Environmental Management System Plans that help parks track 
and reduce their environmental impacts and set targets for sustainable 
park operations. The NPS adopted an Ocean Park Stewardship Action Plan 
in 2006 to guide actions to reduce ocean-related climate change 
impacts. Finally, NPS formed a service-wide Climate Change Response 
Steering Committee to foster communications, provide recommendations, 
and serve as an advisory body to NPS leadership.
    Successful approaches to mitigating climate change impacts require 
the very best science, not only in physical and biological disciplines, 
but also in social, and cultural sciences. Since 1999, the Cooperative 
Ecosystem Studies Units (CESU) Network has provided the NPS with a 
mechanism to collaborate with leading research institutions, including 
universities, NGO's and State and federal partners to provide the 
necessary science for sustainable adaptive management of NPS resources. 
Since 1999, 17 CESUs have been established covering all regions of the 
country, with a total of 250 partners including 13 federal agencies. 
The program has been highly successful in funding cutting edge 
collaborative research and providing technical assistance and capacity 
building to the NPS, as well as State and local agencies and other 
federal partners.
      looking to the future-mitigation, adaptation, communication
    While efforts to date are significant, much work lies ahead. The 
NPS must position itself to respond to the effects of climate change on 
park resources and to prescribe management actions that are suitable 
for parks. Building an effective response to the threats posed by 
climate change will require action in three interrelated areas: 
mitigation, adaptation, and communication. These efforts will 
necessarily involve strong intra-and interagency cooperation and 
leadership. We need to build on the collective knowledge that is 
available to create new solutions for protecting resources and resource 
values.
                     mitigation-leading by example
    Our collective carbon footprint must be understood to be managed 
responsibly. In the area of mitigation, the NPS is leading by example 
in reducing our carbon footprint and promoting sustainable operational 
practices. The Climate Friendly Parks Program and the Energy SmartPARKS 
Program are two of the key ways that NPS is mitigating GHGs through 
these areas of emphasis:

          Emissions Inventories.--Parks quantify and track their 
        emissions and identify specific areas where reductions can be 
        most readily achieved. An online tool--the Climate Leadership 
        in Parks (CLIP) Tool created in 2005, allows parks a new and 
        simplified way to do this assessment and to guide them through 
        the process.
          Climate Action Planning.--Parks use the CLIP tool to identify 
        carbon reduction goals and actions to follow through on these 
        goals. Sixty parks are now in the process of completing these 
        plans.
          Energy Conservation.--Significant portions of GHG emissions 
        in parks come from transportation, building energy consumption, 
        and waste management. Mitigation solutions include sustainable 
        design and construction, adaptive ``green'' reuse of historic 
        structures, use of high-mileage and alternative-fuel vehicles, 
        solid waste reduction, and alternative transportation systems 
        that integrate all modes of travel within a park, including 
        land and water-based vehicles.
          Renewable Energy.--An increasing number of parks are 
        generating and using clean renewable energy such as 
        photovoltaic systems and geothermal heat exchange. The Energy 
        SmartPARKS program is a partnership with the Department of 
        Energy that is focusing on generating renewable energy and 
        showcasing sustainable energy practices in parks. Currently, 
        NPS-wide, 3.8% of energy in parks comes from renewable sources.

    Regions are also moving forward with their own climate change 
initiatives. For example, the Pacific West Region (PWR) of the NPS has 
a very ambitious Climate Change Leadership Initiative that promotes 
Climate Friendly Parks. The overall objective is to support Executive 
Order 13423, Strengthening Federal Environmental, Energy, and 
Transportation Management, by setting GHG targets. The 58 parks in the 
region have set a target of carbon neutral for park operations by 2016 
and now generate over 4% of their energy from renewable sources.
    The NPS has made carbon management, energy conservation, and 
renewable energy a major focus for our future. Accordingly, we have set 
a goal to significantly exceed the federal requirements for reducing 
total energy use in NPS operations and having some of our energy come 
from renewables by 2016, the 100th year anniversary of the 
establishment of the National Park System. Additionally, the NPS has 
set a goal of having all parks identify their carbon footprint and have 
climate action plans in place before 2016.
     safeguarding and protecting park resources-adaptation planning
    While mitigating the cause of climate change is essential, 
scientific evidence demonstrates that even if we stopped emitting 
greenhouse gases today, our past actions have already committed the 
planet to some degree of change. Because of processes in the atmosphere 
and oceans, it will take carbon dioxide and temperature on the order of 
centuries to stabilize once GHG emissions are under control. Other 
responses, such as sea level rise, can take millennia. We have to start 
planning for adaptation options now--while we simultaneously work to 
stabilize emissions.
    For adaptation planning and implementation, our highest priority is 
to support ecosystem integrity and the resilience of species and 
communities to respond to changing conditions. As climate change causes 
shifts in weather, we will see changes in water availability, fire, and 
community structure and composition. Park vegetation and wildlife will 
need to adapt to these new regimes or have the ability to migrate. By 
building resilience and reducing other ecosystem stressors, the NPS 
will help to reduce the extent of some of the most deleterious impacts 
on park resources from climate change. For example, the NPS needs to be 
aggressive in its actions to prevent the intrusion of invasive species, 
eradicate where feasible, and control the spread when prevention and 
eradication efforts fail. The NPS also will undertake measures to 
restore natural ecosystems, making them healthier and more resilient to 
the effects of climate change. Examples include our on-going efforts to 
restore major ecosystems such as the Everglades, and the establishment 
of marine reserves in units of the National Park System.
    A critical component for adaptation planning and implementation 
involves building our science information and ecosystem monitoring 
capacity for sound decision-making by park managers. National park 
units represent a wide range of ecosystems scattered across the Nation, 
embracing a broad spectrum of diverse and natural environments of North 
America. Parks present a tremendous opportunity to observe the effects 
of climate change on resource conditions that scientists and managers 
have documented over decades. Begun almost nine years ago, the NPS 
Natural Resources Challenge Initiative has funded parks across the 
Nation to conduct inventories and initiate vital signs monitoring of 
natural resources under the NPS's jurisdiction.
    The combination of these sources of information, long-term legacy 
monitoring data, and new inventories has provided timely examples of 
the possible effects of climate change now visible in parks. The NPS 
Inventorying and Monitoring (I&M) Program's primary goal is to collect, 
organize, and make available natural resource data. This program 
includes 32 networks serving more than 270 parks. The Vital Signs 
Program, which is part of the I&M Program, is strategically positioned 
to help parks acquire the information they need to make informed 
decisions and to employ adaptive management so that we can be flexible 
in the face of change. In addition, NPS has also been funding baseline 
documentation, including condition assessments of its cultural 
resources and ethnographic studies that include data on natural 
resources utilized and monitored by native groups. This data provides 
critical information for evaluating the potential and real impacts of 
climate change on cultural resources. Information from these programs 
also informs state policymakers and assists scientists in looking at 
regional and national trends.
    Planning for climate change presents a major challenge for park 
superintendents, their staff, and NPS programs. Resource management 
decisions must be based on future expectations. However, in an era of 
climate change, the future will be characterized by highly 
consequential and unprecedented changes that cannot be predicted with 
as much accuracy and precision as we would like. Consequently, the NPS 
is utilizing a scenario planning approach that uses the best available 
science to explore a range of plausible ``multiple working futures'' 
and consider appropriate actions within them. Adaptation also involves 
rethinking infrastructure and preparing people for those changes that 
are inevitable. To respond to climate change, park infrastructure may 
need to be adapted to better perform or maintain functionality. This 
also includes rethinking park planning issues such as zoning and the 
design or location of buildings and roads. Scenario planning is being 
specifically designed to help managers identify policies and actions 
that will be most effective across a range of potential futures and to 
promote tactical adaptation responses that are compatible with the NPS 
mission.
    The NPS has made scenario and adaptation planning a major goal for 
the next ten years to ensure parks are prepared for building resilience 
into ecosystems and ensuring future visitor facilities are sited in 
appropriate locations.
   parks serve as models of sustainability and places to communicate 
                       climate change information
    There is a great need at this time for messages that communicate 
the complexities of climate change and the actions that can be taken. 
With 275 million visitors annually, the parks can serve as models of 
sustainability and platforms to effectively communicate information 
about climate change. Parks can thus be the catalyst for visitors to do 
their part for climate friendly parks. The NPS's interpretive and 
education programs strive to connect people to the parks, with 
opportunities for all vis*itors to form their own intellectual, 
emotional, and physical con*nections to the meanings and values found 
in the parks' stories. Effective interpretive and educational programs 
encourage the development of a personal stewardship ethic and broaden 
public support for preserving and protecting park resources so that 
they may be enjoyed by present and future generations. The public has 
come to expect high-quality and up-to-date resource information when 
they visit parks.
    The NPS is ideally positioned to raise awareness on climate change 
and provide information about solutions that are being implemented 
across the NPS and the Department. A number of efforts are underway to 
tell the story about climate change and impacts to national parks. 
These efforts include a monthly web-based seminar series featuring 
climate change experts on science, communication, and management topics 
and interpretive training using a decision-tree for developing 
knowledge around aspects of climate change. The information will be 
used to frame interpretive programs and answer visitor questions. The 
NPS has developed a ``Climate Change, Wildlife and Wildlands Toolkit'' 
(in conjunction with other federal agencies) to be used by interpreters 
in parks, zoos, aquariums, and science centers and by outdoor and 
classroom educators across the country. In addition, summaries of 
climate change knowledge for specific bioregions--a series of 11 
bioregional documents--are being created in partnership with the United 
States Fish and Wildlife Service that summarize the cur*rent state of 
knowledge about climate change and impacts to protected areas, with a 
focus on national parks and refuges.
    Looking forward, the NPS has a goal of every park having climate 
change information available through brochures, wayside exhibits, 
interpretive programs and handouts, and park websites. The Climate 
Friendly Parks Program has encouraged this and currently, there are 
many examples such as Point Reyes National Seashore, Glacier National 
Park, Apostle Islands National Lakeshore, Everglades National Park, Dry 
Tortugas National Park, and Kenai Fjords National Park where climate 
change information is readily available to the public. The NPS is 
currently developing and supporting a new and exciting ``Visitor--Do 
Your Part Program'' which will have visitors voluntarily measure and 
reduce their carbon footprint.
    The NPS may also utilize the national preservation programs, such 
as Preservation Assistance and the National Center for Preservation 
Technology, to develop and disseminate information on sustainability, 
historic preservation, guidance for adaptive reuse of historic 
buildings and addition of renewable energy sources into historic areas.
                          other considerations
    In the future, collaboration with gateway communities, private 
partners and state, local and federal agencies will be a key element to 
successful mitigation, adaptation, and communication measures. Much of 
our carbon footprint results from visitor services and movement in and 
around parks. Thus, our ability to mitigate GHGs is uniquely tied to 
our gateway communities and the transportation decisions we make. The 
NPS will need to complement natural mechanisms that mitigate and adapt 
to climate change through strategic approaches including: ensuring 
wildlife and stream corridors are established to enable wildlife to 
migrate if necessary; promoting and protecting healthy reefs, mangroves 
and coastal wetlands that can minimize damage to coastal communities; 
and protecting and restoring forests that can reduce soil erosion and 
mudslides brought on by changing weather patterns and catastrophic 
events.
    At present, the Vital Signs Monitoring Program is well-established 
as a key source and supplier of reliable, organized, and retrievable 
information about parks. Climate change monitoring efforts by other DOI 
bureaus, such as the USGS, will also be a valuable tool in 
understanding climate change effects on NPS landscapes. By building on 
the successful network approach of these programs, the NPS will likely 
gain additional capability to collect, analyze, and report data on the 
condition of key natural and cultural resources in parks and how they 
are changing or may change as a result of climate change.
    Coastal and riverine parks are extremely vulnerable to climate 
change impacts, especially sea level rise and storm surges, and these 
are high priority areas for developing and implementing adaptation 
actions. For example, shallow estuaries are significant for the long-
term production and health of many commercial species of fish, 
including salmon and steelhead trout. The survival of these natural 
resources are also critical to maintaining viable cultures that depend 
on them such as the salmon and shellfish critical to Northwest tribes 
and the reefs that support Pacific Island cultures. These important 
habitats could dramatically change as sea level continues to rise. The 
impacts of rising sea level also reach surprisingly far inland. The 
Hudson River, for example, is tidal more than 100 miles inland, at 
Albany, New York. Implementation of adaptation plans will be critical 
to ensure facilities and coastal systems such as estuaries and tidal 
rivers continue to function.
                               conclusion
    Our national park units are environmental baselines to track 
change, and they stand as some of the last vestiges where ecological 
components function naturally. National parks also serve as core 
essential habitats as well as critical habitats for source populations 
of species. To succeed in its mission in the face of climate change, 
the DOI and NPS must lead by example in minimizing our carbon footprint 
and promoting sustainable operational practices. We must take 
responsibility for understanding how climate change will impact the 
national parks and take appropriate steps to protect these national 
treasures. An unprecedented level of collaboration and cooperation with 
other agencies and partners is required to ensure that scientific 
information is collected in order to better protect resources, and 
effectively expand the teaching of the benefits and necessity of 
natural and cultural resource conservation across the Nation and the 
world.
    Thank you for the opportunity to present this testimony. I will be 
pleased to answer any questions you and other members of the 
subcommittee might have. Bibliography

    Senator Udall. Thank you, Dr. Frost.
    We'll next hear from Dr. David Schimel, who's the senior 
scientist for the National Center for Atmospheric Research, 
known to many of us as NCAR, and the CEO for the National 
Ecological Observatory Network.
    Dr. Schimel, welcome. We look forward to hearing your 
testimony.

 STATEMENT OF DAVID SCHIMEL, PH.D., SENIOR SCIENTIST, NATIONAL 
 CENTER FOR ATMOSPHERIC RESEARCH, AND CHIEF EXECUTIVE OFFICER, 
   NATIONAL ECOLOGICAL OBSERVATORY NETWORK, INC., BOULDER, CO

    Mr. Schimel. Thank you, Chairman Udall and Senator McCain. 
Thank you very much for inviting me to testify in Estes Park 
today.
    I will discuss 2 items in this testimony: first, the 
effects of climate change in the Rocky Mountain region--and I 
do have some charts here that illustrate some of the 
consequences; and second, how we can forecast these impacts 
better to provide improved information for decision support for 
resources managers.
    I'm going to discuss the likely to very-likely consequences 
of climate change. The first chart shows the observed 
temperature trend, and you can see that Colorado sits in a 
region that has experienced larger-than-average temperature 
changes over the past century. The second chart shows the 
observed precipitation trend, again showing that the historical 
record shows clearly that the effects of climate change are not 
yet to come, but, in fact, are occurring right now. Again, 
Colorado sits in that southwestern region that has experienced 
very significant decreases in precipitation over the past 
century.
    The next chart shows the model-based extension of this for 
about the next 30 years. These are the results from NCAR's 
community climate system model to 2030. Again, you can see that 
it projects continuing, and fairly substantial, warming. 
Colorado is in one of the parts of the Lower 48 that would 
experience the greatest warming. Again, the models suggest that 
the trend in precipitation will continue as a drying trend for 
the next century or more. Although these results, in contrast 
to the results that are often shown out to 2100, show the sort 
of time horizon that our resource management strategies are 
going to need to deal with.
    The next chart shows the impact of these combined trends on 
water availability. I'd just like you to focus on that dark red 
area. Those are areas that, based on these sorts of model 
projections, show decreases in runoff available to the Colorado 
River system of about 25 percent; again, over the next 50 
years. So, these are near-term results.
    Senator McCain. Why would you see increases in Alaska and 
parts of the Midwest?
    Mr. Schimel. So, the effects of climate change on the 
hydrologic cycle, on the water cycle in the atmosphere, are 
very complex. To summarize, warmer temperatures mean more 
evaporation, more evaporation means it's going to rain more 
somewhere, but not everywhere, because circulation patterns 
change. So, the consensus of model results for North America 
basically shows the eastern part of the United States and the 
high latitudes receiving more precipitation, and the areas that 
are affected most by the monsoon and the El Nino patterns 
receiving decreasing precipitation. With warmer temperatures, 
that's a double-whammy that results in decreased runoff 
available for the major river systems.
    The consequences of these changes in climate are profound. 
We've heard about some of them, and they include disturbances 
that affect biological resources, the mountain pine beetle, 
wildfire, and other pests and pathogens that are becoming 
increasingly evident; obviously, changes to water resources for 
human consumptive use, as well as in-stream and biological use.
    One of the dramatic effects that we're beginning to see 
comes from results from a recent NCAR study that took advantage 
of ground-based and NCAR's airborne research platform, the NCAR 
C-130, to look at carbon uptake by Rocky Mountain forests. The 
results here show that one of the results of warming is to 
reduce the length of the snow-covered season and increase the 
length of the typically very dry summer.
    Next slide please.
    If you look at the results, it shows that with a 1-month 
change in the length of the snow-covered season, or, if you 
will, a 1-month-longer summer period, the amount of carbon 
uptake by Colorado's forests might be cut in half, dramatically 
reducing the--if you will, the subsidy that society receives 
from these forests, in terms of taking fossil-fuel carbon out 
of the atmosphere.
    Finally, we know, from studies in Rocky Mountain Park and 
elsewhere in Colorado, that many of our most prized wildflower 
species and alpine plants are endangered by this same change in 
the timing of the snow-covered, versus the summer, season. The 
possibility is that our alpine ecosystems could change, with 
some species increasing in abundance, including, as Dr. Frost 
said, cheatgrass up to very high elevations, while other 
species could cease to grow, perhaps forever.
    These climate-driven changes pose dramatic challenges to 
resource managers. Climate is changing, and the impacts of 
climate change are evident in these current observations. 
However, our existing monitoring systems, while useful for many 
purposes, are not optimized for detecting the impacts of 
climate change on ecosystems, and we do need to continually 
evaluate both the observations that are made and the source of 
analysis systems that are in place to take this very large 
suite of observations--current, planned, and future potential 
observations--to produce an integrated assessment of what's 
happening and what could happen--not just the climate, but its 
impacts on living and physical resources--to support 
decisionmaking by park managers and other natural resource 
managers in the Rocky Mountain region.
    I thank the Senators for the opportunity to provide 
testimony here, and I'm ready to answer any questions.
    [The prepared statement of Mr. Schimel follows:]

Prepared Statement of David Schimel, Ph.D., Senior Scientist, National 
Center for Atmospheric Research, and Chief Executive Officer, National 
           Ecological Observatory Network, Inc., Boulder, CO
    Chairman Udall and Senator McCain, thank you for inviting me to 
testify in Estes Park today.
    My name is Dr. David Schimel and I will discuss two items in this 
testimony: (1) the effects of climate change in the Rocky Mountain 
region, and (2) the status of forecasting climate change impacts so 
that resource managers can better adapt to these future impacts.
    Today I represent two Colorado-based climate research 
organizations, the National Center for Atmospheric Research (NCAR), a 
world leader in modeling the climate system, and the National 
Ecological Observatory Network (NEON), Inc., a new NSF major facility 
designed from the ground up to observe climate impacts and other 
environmental changes. I am a Senior Scientist at NCAR currently 
serving as CEO of NEON, Inc. I am also a Co-Convening Lead Author of 
the United States Climate Change Research Program's Synthesis and 
Assessment Product 4.3 (SAP 4.3), which addressed the ``Effects of 
Climate Change on Agriculture, Land Resources, Water Resources and 
Biodiversity in the United States.'' SAP 4.3 was a primary source for 
the science on agriculture, water resources and ecosystems in the 
USGCRP's recent Global Climate Change Impacts in the United States 
report. SAP 4.3 covered a number of issues affecting Colorado's 
national parks and provides the foundation for my remarks. This said, 
the views expressed in today's testimony are my own, but I believe they 
reflect peer-reviewed assessments closely.
1. Likely to Very Likely Effects of Climate Change in the
        Rocky Mountain Region
    There is documented evidence that our climate is changing, and 
changes in climate are already affecting land and water resources in 
the Rocky Mountain West. Observations clearly show warmer temperatures 
(as illustrated in Figure 1)* and reduced precipitation (seen in Figure 
2), which are affecting our natural resources in the region. Colorado 
is two to three degrees Fahrenheit warmer than a century ago.
---------------------------------------------------------------------------
    * All figures have been retained in subcommittee files.
---------------------------------------------------------------------------
    Winter snowpack is declining and the length of the snow-covered 
season is decreasing. The longer snow-free seasons are not leading to a 
longer growing season as one might expect, but instead are resulting in 
more summer drought because snowpack is such an important source of 
water for plant growth in higher elevations. These observations 
correspond to recent results from climate models that show continuing 
warming and drying in the United States West. One example of such a 
model can be seen in Figure 3 below.
    Based on past observations and today's climate model projections, 
we can identify a number of key climate change impacts on resources in 
the Rocky Mountain region and in Colorado's national parks, including:

  <bullet> Increases to biological disturbances such as wildfire, 
        mountain pine beetles, and other pests and pathogens that 
        flourish in warmer, drier conditions.
  <bullet> Changes to water resources. Observed changes include reduced 
        runoff and streamflow as well as reduced snowpack. Models 
        project these trends to continue, putting additional stress on 
        groundwater and in-stream water in the parks (see Figure 4).
  <bullet> Reduction of forest carbon sinks because warmer summers and 
        earlier snowmelt lead to less tree growth and higher forest 
        mortality, and thus less carbon storage (as illustrated in 
        Figure 5). Observations just south of Rocky Mountain National 
        Park (RMNP) show that a one-month change in the timing of 
        snowmelt reduced carbon capture in forest ecosystems by one-
        half.
  <bullet> Loss of native plant species. Earlier snowmelt also affects 
        which plants grow during what seasons in alpine meadows. Alpine 
        ecosystems could change as some species increase in abundance. 
        Other plants could cease to grow, possibly forever.

    The climate change impacts described above will affect wildlife and 
biodiversity in natural areas. In addition, they will affect natural 
landscapes in the parks and recreational activities such as fishing and 
skiing.
2. Climate Impacts Forecasting
    To adapt to a rapidly changing environment, natural resources 
managers need access to information on climate impacts and forecasts on 
potential future climate scenarios.
    While models of climate are constantly improving, there is no 
organized, integrated observing system and corresponding climate 
services center for delivering information about climate impacts. 
Instead, there is a multitude of observing systems, each designed for 
one or more of yesterday's problems, and a correspondingly fragmented 
analysis and/or forecast system. The integration of observations and 
modeling of climate impacts needs the kind of coordinated attention and 
emphasis that weather and climate models currently receive. With such 
an approach, forecasting of climate impacts can achieve the maturity of 
physical weather and climate science.
    The Nation has established organizations that provide usable 
information about climate change to resource managers. However, 
research and infrastructure to support management of organizations that 
study the impacts of climate change are in their early development and 
supported only on a piecemeal basis. As noted in SAP 4.3, ``existing 
monitoring systems, while useful for many purposes, are not optimized 
for detecting the impacts of climate change on ecosystems.''
    Even with improved observations, we do not have a center or service 
charged with producing usable analyses and forecasting information 
utilizing these data. In addition, there is no clear plan to implement 
and sustain the generation and dissemination of regional-to 
continental-scale environmental information products. For future 
products to be accepted in decision-making, a service must also 
systematically document how the information was produced and the degree 
of confidence associated with each analysis or forecast. In the current 
environment, critical information for natural resource decision-making 
and adaptation to climate change is hard to obtain. Most forecasting of 
climate impacts is done by individual researchers and is not reliably 
available to resource managers. Thus, providing usable information 
about the spectrum of potential future changes to the stewards of a 
major national treasure like Rocky Mountain National Park is extremely 
difficult.
    New efforts such as NSF's NEON project and the USGS' Climate 
Effects Network are beginning to address this gap in information. 
Colorado is a national center for integrating climate science with 
climate impacts, and those of us who work in the state on these global 
problems are motivated by proximity to Rocky Mountain National Park and 
Colorado's other natural resources. NEON is developing a national 
network of climate impact observation sites, which have been selected 
to span the major wildland and managed ecosystems of the United States, 
including sites in or very near a number of national parks. NEON is 
coordinated with NOAA's climate observations, but also complements them 
with detailed measurements of the biological consequences of climate 
change.
    In conclusion, climate is changing and the impacts of climate 
change are evident in current ecosystem observations. Critical natural 
resources in the national parks are under stress as a result of the 
changing climate, and today's models suggest these changes will 
intensify, further complicating the already complex set of issues 
facing park resource managers. Although we have a system in place for 
observing the current climate, today's observing systems, analyses and 
forecasts are inadequate for providing park resource managers with the 
decision support they need for the future. Colorado's federally funded 
laboratories offer the country a unique collection of facilities for 
integrating climate science with climate impacts assessments. Those of 
us working within the state on these global problems are motivated by 
Colorado's natural resources and stand ready to contribute to improved 
natural resource management in the face of climate change.
    I thank the Senators for this opportunity to provide testimony and 
am ready to answer any questions.

    Senator Udall. Thank you, Dr. Schimel.
    I next want to recognize Ms. Alice Madden, who's the 
climate change coordinator for Governor Ritter. I'd also note, 
for Senator McCain's interest, that Ms. Madden is a recovering 
elected official, John. She served as State----
    [Laughter.]
    Senator Udall [continuing]. House Majority Leader for a 
number of years with great distinction. But, she's found her 
way clear, and is now gainfully employed.
    [Laughter.]
    Senator Udall [continuing]. Leader Madden, it's great to 
have you here. Thank you for joining us.

 STATEMENT OF ALICE MADDEN, CLIMATE CHANGE COORDINATOR, OFFICE 
                  OF THE GOVERNOR, DENVER, CO

    Ms. Madden. Thank you, Mr. Chairman. Good afternoon. Thank 
you for inviting me here today.
    Senator McCain, welcome to Colorado. We are really please 
to have you here.
    Senator McCain. Thank you.
    Ms. Madden. I happened to see the interview of you with 
George Stephanopoulos on the amazing brim of the Grand Canyon, 
and what you said about Glacier National Park, that, you know, 
sort of jokingly, they might have rename the park, I really 
think encapsulated the stunning consequences in a way that 
people can grasp. So, thanks for having me here today.
    Senator McCain. Thank you.
    Ms. Madden. Each of our national park system units within 
Colorado will have its own unique potential consequences, from 
retreating glaciers in Rocky Mountain National Park to 
compromised river flows in the Black Canyon on the Gunnison or 
Dinosaur National Park; but because climate change does not 
honor or consider lines drawn on a map, I was asked to address 
related natural resource management issues facing us across 
Colorado. I'll begin with forest health.
    Within recent years, it's really become pervasive in 
communities and the media coverage, and this is because of the 
visual aspect of this. We all know evergreens are suppose to be 
green, not red. Our best evidence tells us that bark beetles 
and other diseases have killed more than 2.5 million acres of 
various pine forests. Some estimates of our lodgepole mortality 
are as high as 90 percent.
    While the majority of this impact has been observed on the 
West Slope, beetles are expected to spread across the front 
range in coming years. Foresters are now quite concerned about 
the ability of compromised forests to support wildlife habitat, 
protect watershed quality, store carbon, and provide timber and 
recreational opportunities. Local government officials are 
concerned about impacts to community safety. Utility operators 
wrestle with strategies for maintaining the integrity of water 
diversions and conveyances and power-line rights-of-way. 
Extensive areas of overly dense, evenly aged, and diseased 
forests have contributed to widespread concern in the past 
decade about the risk of catastrophic fires. This increased 
risk called significant implications for the health of 
ecosystems in our national park units and for adjacent 
communities, their watersheds, infrastructure, and residents.
    Next, I want to talk a little bit about water management. 
The importance of sound water resource planning in Colorado, 
and all of the Southwest, cannot be overstated. Many factors 
make this a most complicated undertaking: our relative aridity, 
our rapid and sustained population growth, our role as a 
headwaters State for four rivers, and the discrepancy between 
where most of our population resides, and where most of our 
abundant supplies originate. Our water managers are highly 
skilled in managing water supply to meet domestic, commercial, 
industrial, agricultural, and environmental needs in the face 
of routine uncertainty due to Colorado's highly variable 
climate and precipitation patterns, which are, in turn, a 
function of the State's complex topography and location near 
the center of the continent. But, increased warming will make 
an already complex job even tougher.
    So, to aid water managers in addressing future 
uncertainties, the Colorado Water Conservation Board 
commissioned a team of researchers to synthesize climate 
modeling important to water supply planning. The first-ever 
Colorado-specific analysis was published late last year, and I 
have copies to be included with this testimony as part of the 
record.
    There's far too much in this to try to summarize, so I just 
want to recognize a couple of significant shifts. I'm not the 
scientist at this table, I will certainly say that. We may see 
fewer extreme cold months, more extreme warm months, and more 
strings of consecutive warm winters. We'll see seasonal shifts 
in when, and in what form, we receive our precipitation. We 
think there'll be less snowpack, and there'll be a change in 
runoff--to earlier in the spring--and late summer flows may be 
reduced.
    This is a fitting segue into our winter sports. This might 
be debated, but we say we're the Nation's winter sports 
capital. We have a 2-percent market share, and it brings in an 
estimated $2 billion in annual revenue. Individual ski resorts 
are currently taking stock on how certain scenarios may affect 
their bottom line. But the National Conference of State 
Legislatures has concluded that climate change could lead to 
the loss of $375 million and more than 4500 jobs annually by 
2017 if the number of tourists just drops by 1 percent.
    But, I'd like to touch, just for a moment, on some of the 
broader measures that we've taken to combat the consequences of 
climate change. As you're aware, most of our electricity 
production is used to heat, cool, and light our built 
environment. Besides reducing greenhouse gases, there's many 
benefits to making a building more efficient. You're using less 
energy, utility bills decrease, people get to save a little bit 
of money, jobs are created to do the work; it's truly the low-
hanging fruit of potential action. So, we've worked hard to 
create realistic incentives for our citizens to choose to make 
these improvements, such as utility rebates and long-term-
interest loans programs. We've aggressively sought to increase 
the use of both solar and wind power on both small and large 
projects. We're fortunate to have really significant geothermal 
potential in this State, which could be used as a baseload for 
electricity. We think our additional greenhouse gas reductions 
will be achieved by increasing the use of our abundant natural 
gas resources, and Governor Ritter is supportive of research 
being conducted on burning coal more efficiently and, of 
course, on carbon capture and sequestration. We're supporters 
of myriad research projects being conducted by the National 
Renewable Energy Labs, and our wonderful--we have an 
embarrassment of riches of national labs in Colorado, and we 
have great research universities. So, we have created a 
collaboratory, so those entities can work together and make 
sure that they get those ideas right out into the marketplace. 
We're particularly excited about, things like next-generation 
biofuels and battery storage.
    We have two Smart Grid pilot projects in this State, one of 
which has a pilot--within it has a project testing vehicle-to-
grid technologies.
    We've learned along the way that addressing climate change 
can help create a sustainable energy future, which has the 
added benefit of creating a sustainable economy. Our new energy 
economy has flourished here in Colorado, and we have great 
faith that melding America's natural resources with our 
intellectual sources and entrepreneurial spirit will help lead 
the world to develop and adopt the solutions needed to adopt 
these serious problems.
    Thanks for having me today, and I'm happy to answer 
questions later.
    [The prepared statement of Ms. Madden follows:]

Prepared Statement of Alice Madden, Climate Change Coordinator, Office 
                      of the Governor, Denver, CO
    Mr. Chairman, thank you for the invitation to address the 
Subcommittee regarding climate change impacts to national parks in 
Colorado and related management activities.
    National Park System units in Colorado bear graphic testament to 
climate change through the ages, from the remarkable, abandoned Cliff 
House in Mesa Verde to the vanishing glaciers in Rocky Mountain 
National Park. Other park system units, like Black Canyon of the 
Gunnison National Park and Dinosaur National Park, feature magnificent 
rivers whose flows could be severely compromised by projected climate 
change impacts.
    But just as climate warming in Colorado is occurring within larger 
regional, continental, and global contexts, the future management of 
our national parks in Colorado will occur within a larger mosaic of 
land and resource use and protection, land ownership, and social-
economic conditions.
    Therefore, my comments today will go beyond our national parks to 
focus broadly on key natural resource management, use, and protection 
issues facing Colorado for which climate warming has or could have 
important implications.
    These include forest management, water management, and recreation. 
I'll leave to experts from the National Park Service and other 
organizations the more focused assessment of how climate warming may be 
affecting the various units of the National Park System in Colorado.
                             forest health
    I'll begin with forest health issues, which in recent years have 
come to pervade community discussions and media coverage throughout 
Colorado. This is because bark beetles and, to a lesser extent, 
wildfire and land development are causing dramatic changes to 
Colorado's forests.
    Bark Beetles.--Recent aerial survey data collected by the United 
States Forest Service and Colorado State Forest Service indicate that 
bark beetles and other diseases have killed more than 2.5 million acres 
of lodgepole, ponderosa and limber pine forests. Some estimates of 
total mortality in Colorado's extensive lodgepole forests are as high 
as 90%. Meanwhile, spruce bark beetle has killed about 374,000 acres of 
high-elevation spruce forests. Sudden Aspen Decline Syndrome has 
impacted over half a million acres of aspen, and in the southwest, the 
ips beetle has killed approximately 1.5 million acres of pinyon pine 
forests in southwest Colorado. While the majority of this impact has 
been observed on the West Slope, beetles are now having a marked effect 
on the forests of Rocky Mountain National Park and are expected to 
spread across the Front Range in coming years.
    Clearly, something unusual is happening. Outbreaks of bark beetles 
in Colorado's forests occur naturally and with some regularity, but the 
current infestation, which began approximately 10 years ago, is the 
largest in recorded history both in Colorado and in the western United 
States. Moreover, beetles are attacking trees in places where 
widespread infestations have never before been recorded.
    In testimony presented in June to this subcommittee's counterpart 
in the House of Representatives, Rick Cables, Regional Forester for the 
Rocky Mountain Region of the U.S Forest Service, noted that this most 
recent infestation has prompted concern among foresters and forest 
ecologists that resulting tree mortality may impair ecosystem functions 
and compromise the ability of forests to support wildlife habitat, 
protect watershed quality, store carbon, and provide timber and 
recreational opportunities (both developed, e.g., skiing, and 
undeveloped, e.g., hunting and fishing). Local government officials are 
concerned about impacts to community safety and infrastructure. 
Electric and water utility operators wrestle with strategies for 
maintaining the integrity of water diversions and conveyances and power 
line rights of way. State and federal recreation managers worry about 
impacts to trail systems and campgrounds. To the average Colorado 
resident or visitor travelling through our state's forested areas, 
these land management concerns may not be foremost in their thinking, 
but their reaction to the aesthetic impacts to the appearance of large 
areas of formerly green forests are no less real.
    Many factors likely have contributed to the current bark beetle 
problem. Decades of policy promoting fire suppression--pre-dated by 
large scale human disturbances like mining-era logging and stand-
replacing fires--have resulted in large areas of forest that are overly 
dense and characterized by trees of similar advanced age. This is 
particular true of lodgepole forests. When further stressed by drought 
and elevated temperatures such has have occurred across most of 
Colorado on average over the last 10-15 years or so, these forests have 
become more susceptible to large scale beetle infestations. In turn, 
elevated temperatures--including longer, warmer summers and fewer 
periods of intensely cold winter weather--have favored explosive bark 
beetle population growth and the resulting widespread infestation. Of 
real concern in relation to possible future climate warming, these dead 
and dying forests are slowly changing from carbon sinks to carbon 
sources, thereby further contributing to factors that appear to be 
leading to widespread re-structuring of forested landscapes.
    Wildfire.--Some of the same factors that have contributed to large 
scale beetle infestations have also likely contributed to increased 
incidence of large, catastrophic fires Colorado experienced around the 
turn of the century. While the most notable of these was the Hayman 
Fire, the largest on record in Colorado, other large fires like the 
Missionary Ridge fire also occurred in this period. Although climatic 
conditions in recent years have not provided conditions necessary to 
promote large, catastrophic fires, extensive areas of overly dense, 
even-aged and now diseased forests have contributed to widespread 
concern in the past decade about risk of catastrophic fires seriously 
altering Colorado's forested landscapes and the human and natural 
communities they support. The anxiety of our mountain residents have 
only been intensified by the relentless and truly startling advance of 
insect pests and the forest mortality associated with them.
    These fears are real and are driving many actions to protect our 
communities, infrastructure, and watersheds.
    To the extent that climates models predicting warmer temperatures 
and reduced or altered precipitation regimes prove to be correct, wild 
land fires could increase and become more severe. This increased risk 
holds significant implications for the health of the ecosystems in our 
national park units and for adjacent communities, their watersheds, 
infrastructure and residents.
                       water resource management
    The importance of good water management and sound water resource 
planning in Colorado cannot be overstated. Many factors combine to make 
water resource management and planning a most intricate and serious 
undertaking. These include:

    --our state's relative aridity;
    --our rapid and sustained population growth;
    --future demands associated with new fossil fuel energy 
            development;
    --our role as a headwaters state for four major interstate rivers;
    --and the discrepancies between where most of our population 
            resides and where our most abundant supplies originate.

    We're fortunate in that Colorado water managers are among the most 
accomplished in their field. These individuals are expert in managing 
water supplies to meet domestic, commercial, industrial, agricultural, 
and environmental needs in the face of significant and routine 
uncertainty. This uncertainty comes from Colorado's highly variable, 
year-to-year climate and precipitation patterns, which themselves are a 
function of the state's complex topography, high elevation, and 
location near the center of the North American continent.
    But even these highly skilled professionals, who are used to 
managing under variable and uncertain conditions, will find it doubly 
challenging to manage water supplies effectively should climate models 
that predict increased warming prove accurate.
    What we think we know.--To aid water managers in addressing future 
uncertainty associated with climate change, the Colorado Water 
Conservation Board commissioned a team of researchers under the 
auspices of the National Oceanic and Atmospheric Administration's 
Western Water Assessment to synthesize climate modeling important to 
water supply planning. This first-ever Colorado-specific analysis was 
published late last year and is included with this testimony as part of 
the public record. It is entitled Climate Change in Colorado: A 
Synthesis to Support Water Resources management and Adaptation.
    In general, this synthesis of our scientific understanding of a 
variety of global and regional climate models downscaled to Colorado 
concludes with the following key points:

          1) Climate models project Colorado will warm by 2.5 degrees 
        by 2025, relative to the 1950-1999 baseline, and 4 degrees by 
        2050.
          2) By 2050, models indicate that temperatures on the eastern 
        plains will shift westward and upslope, bringing into the Front 
        Range, where 80 percent of the state's population resides and 
        is projected to reside, temperature regimes that today occur 
        near the Kansas border.
          3) Modeled winter projections show fewer extreme cold months, 
        more extreme warm months, and more strings of consecutive warm 
        winters. By 2050, the January climate of the eastern plains is 
        expected to shift northward by about 150 miles. In all seasons, 
        the climate of the mountains migrates upward in elevation, and 
        the climate of the desert southwest progresses up into the 
        valleys of the western slope.
          4) Model projections do not agree whether annual mean 
        precipitation will increase or decrease in Colorado by 2050. 
        When results are averaged, the models show little change in 
        annual mean precipitation by 2050, although a seasonal shift in 
        precipitation does emerge. Combined effects of a northward 
        shifting storm track, potentially wetter storms and a global 
        drying of the sub-tropical regions may result in more mid-
        winter precipitation throughout the state, and in some areas, a 
        decrease in late spring and summer precipitation.
          5) Projections show a precipitous decline in lower-elevation 
        (below 8200 feet) snowpack across the West. Modest declines 
        (10%-20%) are projected for Colorado's high elevation snowpack 
        (above 8200 ft). The timing of runoff is projected to shift 
        earlier in the spring and late-summer flows may be reduced. 
        These changes are probably going to occur regardless of changes 
        in precipitation.
          6) Runoff in the Upper Colorado River Basin could decline in 
        the mid-to-late 21st century by 6%-20%.

    What we need to know better.--The list is long though we are 
learning more and more each year. For example, though the effects of 
climate change on the Colorado River Basin has been the focus of 
several studies, we know comparatively little about the impact of 
climate change on the Rio Grande, Platte, and Arkansas rivers. More 
work needs to be done here.
    Though the Colorado River Basin has been studied in greater depth 
than other basins, we still can only speculate about the practical 
consequences of climate change. For example, at this point, we don't 
know how compliance by Upper Basin States with the Colorado River 
Compact might be affected by reduced future flows at Lee's Ferry due to 
warming temperatures, reduced lower elevation snowpack, and altered 
precipitation regimes in the Upper Basin.
    Supported by the CWCB report, Colorado water managers are now fully 
engaged in the process of improving our understanding of the 
vulnerability of our water supplies to climate change. Within the next 
several months, we will have completed a Colorado River Water 
Availability Study and the Joint Front Range Climate Change 
Vulnerability Study.
                               recreation
    Wildlife-related recreation.--Our understanding about the specific 
future impacts of climate change to Colorado's fish and wildlife 
populations and habitats or on the angling, hunting, and wildlife 
viewing opportunities they support is also still evolving. Still less 
well understood are the considerations that should drive management of 
wildlife populations and habitats under different climate change 
scenarios, and which adaptation strategies will be most efficacious. 
The knowledge that we do have is still somewhat theoretical and derived 
from largely anecdotal observations of ecological change or 
extrapolated from broader principles of ecology.
    That said, information and knowledge is beginning to be developed 
at a rapid pace with potentially real ramifications for managing 
wildlife, habitats, and ecological systems. For example, the Colorado 
Division of Wildlife is working with a broad spectrum of governmental 
and non-governmental organizations to assess species and habitat 
vulnerability. Our goal is to have a preliminary understanding of 
species and habitat vulnerability and adaption responses and 
requirements within about one year. This knowledge will help ensure a 
sound understanding of the adaptation requirements of natural systems, 
and will help to prioritize and target future habitat protection and 
management actions to the greatest extent possible to address risks to 
wildlife posed by climate change.
    In the meantime, the Division of Wildlife will continue to work 
with its partners in the public and private sectors to acquire, 
protect, and restore habitats in priority areas throughout the state to 
ensure that other threats to wildlife and associated recreational 
opportunities are minimized.
    Winter Sports.--As the Nation's winter sports capital--with 23 
percent of the skiing and snowboarding market share and an estimated $2 
billion in annual revenue--Colorado could have much at stake should the 
worst of the scenarios described by climate models materialize. Under 
some scenarios, we could experience considerably shortened seasons 
(especially in the spring) and less rideable terrain. Individual ski 
resorts are currently taking stock on how certain scenarios may affect 
their bottom line. But in a report published last year, the National 
Conference of State Legislatures concluded that climate change could 
lead to the loss of $375 million and more than 4,500 jobs annually by 
2017 if the number of tourists coming to Colorado ski resorts is 
reduced by just 1 percent.
            an overview of ritter administration initiatives
    Governor Ritter published a Climate Action Plan in 2007. It sets 
aggressive goals to reduce green house gas emissions (GHG) by 20% from 
2005 levels by 2020 and by 80% by 2050. We well know we must be 
prepared to face some inevitable changes and the plan discusses 
adaptation measures around water, wildlife and forests.
    I would like to touch very briefly on some of the other proactive 
measures we have taken to combat the consequences of climate change. 
Similar to emission numbers we see for the United States, over a third 
of the GHG emissions in Colorado are from electricity production so we 
have concentrated much of our efforts on that sector. We believe we can 
get to over 50% of our reduction goals in this sector through 
efficiency measures. As you are aware, most of our electricity needs 
are used to heat, cool and light our built environment. There are many 
benefits to making a building more efficient: less energy is needed; 
utility bills decrease; jobs are created to do the work. It is truly 
the low hanging fruit of potential action. We have worked hard to 
create realistic incentives for our citizens to choose to make these 
improvements such as utility rebates and long term, low interest loan 
programs.
    We believe approximately 30% of the GHG emissions from the 
electricity sector can be addressed by increasing the use of renewable 
energy. We have aggressively sought to increase the use of both solar 
and wind power on both small and large scale projects. Colorado is 11th 
in wind power potential, sixth in solar power potential and we are 
fortunate to have significant geothermal potential which can be used as 
a base load source of electricity. Colorado has high heat sources at 
shallow levels which makes this a very realistic option. The remaining 
percentage will likely be reached by a combination of increasing the 
use of our abundant natural gas resources and new technologies around 
burning coal more efficiently and capture and sequestration.
    Our second area of focus has been the transportation sector which 
accounts for about 1/3 of Colorado's GHG emissions. We are supporters 
of myriad research projects being conducted by the National Renewable 
Energy Lab in Golden and our research universities. We have created a 
``Collaboratory'' among these entities that accelerates getting new 
ideas right out into the market place.
    There is much work to be done but there is great potential in the 
commercial scale production of highly efficient biofuels and 
concentrated natural gas. Advances in battery storage will increase the 
attractiveness of electric and hybrid vehicles. We have the first smart 
grid city in the Unites States which includes a pilot project testing 
vehicle to grid technologies.
    The state also has a very aggressive greening of government 
program. Governor Ritter believed if we were trying to encourage the 
citizens of our state and businesses to take action-then the state 
should lead the way. Utilizing performance contracting, we have made 
many of our state building vastly more efficient. Both the Governor's 
mansion and the state capitol are LEEDS certified.
    In the interest of time, I will stop here but I just wanted to 
share with you a few of the ways we are addressing climate change in 
Colorado. We learned along the way that addressing climate change can 
help create a sustainable energy future which has the added benefit of 
creating a sustainable economy. The New Energy Economy has flourished 
in Colorado and we have great faith that America's intellectual 
resources and entrepreneurial spirit will help lead the world to 
develop and adopt the solutions needed to address to this serious 
problem.

    Senator Udall. Thank you, Ms. Madden.
    The important testimony of the panel will be wrapped up by 
Mr. Stephen Saunders, who's president of the Rocky Mountain 
Climate Organization.
    Welcome, Stephen. We look forward to hearing your 
testimony.

   STATEMENT OF STEPHEN SAUNDERS, PRESIDENT, ROCKY MOUNTAIN 
                CLIMATE ORGANIZATION, DENVER, CO

    Mr. Saunders. Thank you, Mr. Chairman. Thank you, Senator, 
for coming here.
    There is no question in my mind that human-cause change to 
the climate is the greatest threats that our national parks 
have ever faced. We've never lost a national park before. Dry 
Tortugas' highest point is no more than 3 feet above sea level. 
Ellis Island National Monument's highest point is no more than 
3 feet above sea level. The government, Senator McCain, in the 
report that you referred to that came out this year, says that, 
on the course we're going, the sea level will rise 3 to 4 feet 
by the end of the century.
    Those parks are in danger of being lost. Most of Everglades 
is under 3 feet. Most of Biscayne is under 3 feet. Sequoia 
National Park----
    Senator McCain. Bangladesh is less--Bangladesh--most of 
Bangladesh is less than 3 feet.
    Mr. Saunders. Worldwide, this is problem, too, for sure.
    Sequoia National Park may lose all of its sequoia. Joshua 
Tree National Park may lose all of its Joshua trees. Glacier 
National Park may lose all of its glaciers. Virgin Islands 
Coral Reef National Monument may lose all of its coral reefs. 
This is the greatest threat that we've ever faced in our 
national park system.
    It's certainly true here. Rocky Mountain National Park will 
have less ice, less snow, less water, more wildfire, less 
meadows, less wildflowers; it is going to be a very different 
park.
    So, if we now are saying that this is the greatest threat 
that we've faced--and I welcome Dr. Frost's statement for the 
Department that it is potentially the greatest threat; I would 
just edit the word ``potentially'' out, but that's a small 
difference compared to the differences we have had--if this is 
the greatest threat the Park Service has faced, what do we do 
about that? Mr. Chairman, I'd suggest a couple of things. One 
is that the National Park Service has not done its job yet, and 
there are reports by GAO, and others, saying that.
    The National Park Service is a marvelous agency, and the 
people that are in that agency are prepared to do more. They're 
waiting for a new director, who needs Senate confirmation. Once 
Jon Jarvis is confirmed and gets there, I think the Park 
Service is going to embark, finally, on developing the proper 
plan for how the Park Service addresses this issue. I would 
urge you, sir, to hold an oversight hearing as soon as Jon has 
been confirmed and has a chance to develop plans. There's no 
more aid to an agency trying to do its work than to know that 
an oversight hearing is looming before it.
    The other question's about resources. Fifteen, 20 years 
ago, we said the greatest threat to the National Park Service 
was the backlog of maintenance needs. We set up a Fee Demo 
Program, as we call it, where we let the parks keep the 
entrance fees in the park to deal with the backlog that they 
need to deal with, the visitor needs and all that. That's been 
a great program.
    One of the superintendents that I've talked to, from a park 
that I won't name, has suggested now is a time to let the Park 
Service use some of the entrance-fee money to deal with climate 
change. Right now, they can only deal with the visitor impacts, 
and climate change is in a different category. I think that's 
an excellent idea, that if the Park Service and other agencies 
were able to use some of that money to deal with the education 
of the people coming to the parks about threats faced by the 
park, to deal with assessing the impacts, dealing with the 
impacts, able to use some of that money to reduce the emissions 
from the park's operations itself, that would be something that 
would really help provide the resources that the Park Service 
will need to be dealing with this.
    With that, I'll be happy to let you ask all of us 
questions.
    [The prepared statement of Mr. Saunders follows:]

   Prepared Statement of Stephen Saunders, President, Rocky Mountain 
                    Climate Organization, Denver, CO
    Thank you for the opportunity to testify before you today. I am 
Stephen Saunders, president of the Rocky Mountain Climate Organization, 
a Denver-based group working to bring about action to reduce the 
contributions and vulnerabilities of the interior American West to 
human-caused climate change. Our group is a mainstream coalition, with 
partners that include 13 local governments; Denver Water, the largest 
water provider in Colorado; five businesses, from the Aspen Skiing 
Company to Wright Water Engineers; and six nonprofits, from the 
Colorado Association of Ski Towns to Western Resource Advocates.
    In 2006, the Rocky Mountain Climate Organization prepared, and 
released with the Natural Resources Defense Council, a report, ``Losing 
Ground: Western National Park Endangered by Climate Disruption.'' It 
addressed national parks in the 11 western states, and identified 12 
that we believed to be at the greatest risks. RMCO is again working 
with NRDC on an updated and expanded report, for release later this 
year, on the effects of climate change on national parks across the 
country, not just in the West. I am a principal author of both reports.
    Also relevant to my testimony today is my service from 1998 to 
2001, during President Clinton's second administration, as the Deputy 
Assistant Secretary of the United States Department of the Interior 
over the National Park Service and the United States Fish and Wildlife 
Service.
    Of course, climate change is a global phenomenon, with global 
causes and effects. But its effects on national parks are a very 
appropriate focus. Our national parks preserve the very best of our 
natural and cultural heritages. To continue to provide for their 
continued enjoyment by future generations-to fulfill the central 
purpose of the parks-we have to understand and then address the threats 
to them. In figuring out how to address a changed climate in our 
national parks, we also will learn some of what we need to know to 
address it everywhere. That, too, is in the best tradition of our 
national park system.
    Human disruption of the climate is the greatest threat our national 
parks have ever faced. If we continue adding heat-trapping gases to the 
atmosphere in the way we now are, we could, for the first time, lose 
entire national parks. Both Dry Tortugas National Park and Ellis Island 
National Monument are barely above the current sea level, less than the 
three feet that the United States government has said is an appropriate 
planning scenario for human-caused sea-level rise in this century. Most 
of Everglades National Park is also less than three feet above the sea 
level, and the rest is not much higher. All three parks could be lost 
to rising seas. Glacier National Park could lose all its glaciers. 
Joshua Tree National Park could lose all its Joshua trees. Saguaro 
National Park could lose all its saguaros. Virgin Islands Coral Reef 
National Monument could lose all its coral reefs. Mount Rainier 
National Park was recently closed for six full months because of heavy 
downpours and flooding, examples of the extreme weather now occurring 
more often.
    How much the climate continues to change, and how much the national 
parks suffer these kinds of impacts, is still up in the air-more 
precisely, up to what we put in the air. Both climate disruption and 
its impacts on parks will be far greater if we continue stumbling into 
a high-emissions future. Or we can choose a lower-emissions future and 
avoid the worst projections of future climate change and its effects. 
Time is already running short, but it is still possible to bring down 
emissions sharply enough to ward off unacceptable changes. As the 
United States government recently said in an important, new overall 
report on climate change, that will require stabilizing atmospheric 
levels of heat-trapping gases about where they now are, adding no more 
additional pollution than can be removed by natural processes.
    I am convinced we can and will do that. One of the many, many 
reasons to do so is to avoid unacceptable effects on the national parks 
that Americans love. Let me describe just some of those impacts, with a 
particular focus on national parks in Colorado. Let me point out at the 
outset that in our 2006 report, ``Losing Ground,'' we identified both 
Rocky Mountain and Mesa Verde national parks as among the 12 western 
parks most at risk to the effects of an altered climate.
    In Colorado and the rest of the interior West, many of the impacts 
of climate change flow from its two key manifestations-as a result of 
heat-trapping gases, it will be both hotter and drier here. Not all 
regions will get drier. Generally, the wetter parts of the globe are 
expected to get wetter and the drier parts drier. Here, we already are 
seeing reductions in snowpack, earlier snowmelt, and reduced 
streamflows. Of particular significance is the projection of scientists 
that the flows of the Colorado River, which begins in Rocky Mountain 
National Park, will be diminished by perhaps 4 to 14 percent in this 
century.\1\ This is of great significance not only to the one-tenth of 
all Americans who depend on the Colorado River for water supplies, but 
also to the ecosystems of the national parks in the Colorado River 
basin, the largest such concentration in the national park system.
---------------------------------------------------------------------------
    \1\ M. Hoerling and others, ``Reconciling projections of Colorado 
River streamflow,'' Southwest Hydrology 8, no. 3 (2009), pp. 20-21, 31.
---------------------------------------------------------------------------
    Plant communities.--The greatest impacts of climate change in Rocky 
Mountain National Park, as in many parks, probably will be large 
changes in the park's plant communities-especially a loss of forests, a 
loss of tundra, a loss of meadows, and a loss of wildflowers.
    We already are losing today's forests in Rocky Mountain because of 
a changed climate. To begin with, the Intergovernmental Panel on 
Climate Change has warned us that it is ``very likely'' that pest and 
disease outbreaks in forests will be increased by global warming. A 
prominent example is the mountain pine beetle epidemic now in the 
process of killing virtually every mature lodgepole pine tree in Rocky 
Mountain National Park. The National Park Service has acknowledged that 
the mountain pine beetles' ``prevalence is likely a direct effect of 
climate change.''\2\ Our forests are now susceptible to a widespread 
outbreak of beetles, because we have huge stands of the mature trees 
the beetles favor, in large part because of previous fire-fighting 
efforts. Some type of outbreak of mountain pine beetles, a natural 
occurrence in these forests, is inevitable in these conditions. But the 
extent of the current episode and the speed with which it has spread 
are not natural. They have been made possible by human-caused climate 
change. The warmer winters we already are experiencing have removed the 
periods of deep winter cold that have served as natural checks on 
beetle populations. Warmer temperatures in their active seasons have 
allowed the beetles to both go higher up the mountains and expand their 
populations more quickly than is natural. In particular, in lodgepole 
forests between 9,500 and 11,000 feet high, beetles used to take two 
years to complete their life cycle; now they are able to produce a new 
generation in a single year.\3\ This has enabled this epidemic to 
spread so far and so fast, including over mountain ranges that used to 
serve as natural barriers stopping or slowing previous outbreaks.
---------------------------------------------------------------------------
    \2\ Continental Divide Research Learning Center, Rocky Mountain 
national Park, National Park Service, ``Climate change in Rocky 
Mountain National Park: Preservation in the face of uncertainty,'' 
2008, http://www.nps.gov/romo/parkmgmt/upload/
climate_change_mountain2.pdf.
    \3\ Colorado State Forest Service, Colorado Department of Natural 
Resources, ``2006 Report on the Health of Colorado's Forests,'' p. 15, 
http://csfs.colostate.edu/pdfs/06fhr.pdf.
---------------------------------------------------------------------------
    Also recently linked to a changed climate is a rapid dieback of 
aspen trees that scientists have labeled ``sudden aspen decline.'' 
Beginning in 2004, people began to notice that aspen trees in Colorado, 
particularly in the southwestern part of the state, were dying in large 
numbers and that the dead trees were not regenerating as usual through 
new trees growing from the roots of the old. This aspen dieback has 
increased rapidly, with the affected acreage in Colorado having 
increased four-fold between 2006 and 2008. Aspen die-off has also been 
observed in northern Arizona, southern Utah, and Montana. Research by 
the United States Forest Service has linked the sudden aspen decline in 
Colorado to the hotter and drier conditions that represent an altered 
climate in the interior West.\4\ The emblematic aspens of the West, 
including those near here in Rocky Mountain National Park, could be at 
risk.
---------------------------------------------------------------------------
    \4\ J. J. Worrall and others, ``Rapid mortality of Populus 
tremuloides in southwestern Colorado, USA,'' Forest Ecology and 
Management 255 (2008): 686-696, http://www.fs.fed.us/r2/fhm/reports/
sad_2008.pdf
---------------------------------------------------------------------------
    A loss of other kinds of forests has occurred in Mesa Verde 
National Park and elsewhere in the Southwest, where a combination of 
hotter and drier conditions and another beetle, the pinon ips bark 
beetle, has led to widespread forest dieback in the pinons of the 
pinon-juniper forests that are of the dominant forest type of the 
Colorado Plateau. In just the two years of 2002 and 2003, beetles 
killed 90 percent of the pinon pines in studied portions of Mesa Verde 
and of Bandelier National Monument in New Mexico. Researchers have 
attributed the underlying cause of the pinon die-off to climatic 
factors, as sustained heat and drought left the trees particularly 
vulnerable to bark beetles. More trees died than during an even drier 
period in the 1950s, pointing the researchers to the higher 
temperatures of the recent drought as the key factor in the extent of 
the recent forest die-off.\5\
---------------------------------------------------------------------------
    \5\ D. D. Breshears and others, ``Regional vegetation die-off in 
response to global-change-type drought,'' Proceedings of the National 
Academy of Sciences 102, no. 42 (2005): 15144-15148.
---------------------------------------------------------------------------
    Perhaps most ominous, a recent study of undisturbed forest plots 
across the West found that all types and ages of trees are dying at 
higher rates, ``with regional warming and consequent drought stress 
being the most likely drivers.'' Led by two United States Geological 
Survey scientists stationed in Sequoia and Kings Canyon national parks, 
a team of researchers examined records of 76 undisturbed forest plots 
in which all individual trees had been counted in census records going 
back as far as 1955. The studied forests were in Yosemite and Sequoia/
Kings Canyon national parks in California and elsewhere across the 
West, including in Colorado. Almost all plots had experienced an 
increase in overall tree mortality, including both young and old trees. 
In the Northwest, the tree mortality rate had doubled in 17 years; in 
the interior West, in 29 years. The researchers believed that higher 
temperatures and drier conditions-again, manifestations of a changed 
climate-were the reasons for the accelerated tree deaths.\6\ This study 
builds on earlier work by the same two USGS researchers showing 
increasing tree mortality in Sequoia/Kings Canyon and Yosemite national 
parks. Based on that work, they warned:
---------------------------------------------------------------------------
    \6\ P.J. van Mantgem and others, ``Widespread increase of tree 
mortality rates in the western United States,'' Science 323 (2009): 
521-523.

          if forests in the Sierra Nevada are as sensitive to 
        increasing evaporative demand as our findings imply, they may 
        now be poised for die-back during otherwise normal periods of 
        reduced precipitation, similar to the recently documented die-
        back in the pinon-juniper woodlands of south-western North 
        America. But even in the absence of periods of significantly 
        reduced precipitation, continued temperature-driven changes in 
        mortality rate have the potential to dramatically alter 
        forests.\7\
---------------------------------------------------------------------------
    \7\ P.J. van Mantgem and N.L. Stephenson, ``Apparent climatically 
induced increase of tree mortality rates in a temperate forest,'' 
Ecology Letters 10 (2007): 909-916.

    A loss of mountaintop tundra may well be another change in plant 
communities resulting from a hotter climate. For Rocky Mountain 
National Park, home to the largest expanse of alpine tundra in the 
United States outside of Alaska, one group of scientists projected that 
warming of 5.6 F could cut the park's area of tundra in half and that 
of 9 to 11 F of additional heat could virtually eliminate it, as 
forests move upslope.\8\ In Glacier National Park, where there has been 
an effort to study changes in the extent of tundra, scientists using 
repeat photography have documented that trees just below timberline 
have already begun to grow more upright and have filled in forest 
edges.\9\
---------------------------------------------------------------------------
    \8\ N. Hobbs and others, ``Future impacts of global climate on 
Rocky Mountain National Park: Its ecosystems, visitors, and the economy 
of its gateway community--Estes Park'' (2003), pp. 16-17, http://
www.nrel.colostate.edu/projects/star/papers/2003_final_report.pdf.
    \9\ D.B. Fagre, ``Spatial changes in alpine treeline patterns, 
Glacier National Park, Montana,'' http://www.nrmsc.usgs.gov/research/
treeline_rsrch.htm.
---------------------------------------------------------------------------
    Other changes in plant communities include a loss of mountain 
meadows, which exist where the combination of heavy snow cover in the 
winter and a short growing season in the summer keep tree seedlings 
from surviving. Scientists have predicted that a hotter climate will 
reduce snow cover and extend the growing season, shrinking alpine 
meadows. I know of no studies yet in Rocky Mountain National Park, but 
scientists have already detected a loss of mountain meadows in Glacier, 
Olympic, Sequoia/Kings Canyon, and Yosemite national parks.\10\
---------------------------------------------------------------------------
    \10\ D.B. fagre and D. L. Peterson, ``Ecosystem dynamics and 
disturbance in mountain wildernesses: Assessing vulnerability of 
natural resources to change,'' Climatic Change 59, nos. 1-2 (2003): 74-
81. C. Milar and others, ``Response of subalpine conifers int he Sierra 
Nevada, California, U.S.A., to 20th-century warming and decadal climate 
variability,'' Arctic, Antarctic and Alpine Research 36 (2004):181-200.
---------------------------------------------------------------------------
    Scientists also have documented how higher temperatures suppress 
the growth of mountain wildflowers. Researchers at the Rocky Mountain 
Biological Laboratory near Crested Butte, Colorado-the official 
wildflower capital of the state-have found that using heat lamps to 
warm mountain test plots by 4F leads to a substantial reduction in 
wildflowers and their replacement by sagebrush, normally found in 
lower-elevation, dryer areas.\11\
---------------------------------------------------------------------------
    \11\ T.J. Perfors, J. Harte, and S. Alter, ``Enhanced growth of 
sagebrush (Artemisia tridentate) in response to manipulated ecosystem 
warming,'' Global Change Biology 9, no. 5 (2003): 736-742. F. Saavedra 
and others, ``Changes in flowering and abundance of Delphinium 
nuttalianum (Ranunculaceae) in response to a subalpine climate warming 
experiment,'' Global Change Biology 9, no. 6 (2003): 885-894.
---------------------------------------------------------------------------
    To step back from the scientific studies and put this in its proper 
perspective, earlier this month I sat on a log at the edge of Mill 
Creek Basin in Rocky Mountain National Park, reveling in that meadow 
and its profusion of wildflowers, set off against a backdrop of aspens 
and, behind them, a pine-forested mountainside. I thought that I had 
better let this scene really soak into my memory, because each of those 
elements-the meadow, the wildflowers, the aspens, and the pines-are 
already being disrupted by the changes we are making in our climate. I 
feared that my children may not be able to enjoy such a scene in their 
adult lifetimes.
    Wildlife.--An altered climate also will change the wildlife species 
in our parks. At particular risk are alpine species that can run out of 
higher elevations to climb to find cooler conditions. Rocky Mountain 
National Park's tundra along Trail Ridge Road has what has long been 
one of the most accessible and famous populations of white-tailed 
ptarmigan in the country. In just two decades, however, the numbers of 
this local population have been cut in half, and researchers predict 
their extinction in the park by mid-century if temperatures rise as 
predicted.\12\ I've been going up there for over three decades, and I 
certainly notice the change in the ptarmigan numbers. Pikas, little 
known across much of the country but well known to visitors to Trail 
Ridge Road, are not able to survive even short periods of temperatures 
above 75F or so. Across the West at elevations lower than on Trail 
Ridge Road, some local pika populations have already disappeared.\13\ 
The United States Fish and Wildlife Service is currently considering 
whether pikas should be listed for protection under the Endangered 
Species Act because of the threat to them of a hotter climate. In 
Yosemite National Park, about half of small mammal species are now 
found at different ranges of elevation than early in the last century; 
on average, the range of the mammals is now about 500 yards higher.\14\
---------------------------------------------------------------------------
    \12\ Hobbs and others; see note 1.
    \13\ E. A. Beever and others, ``Patterns of apparent extirpation 
among isolated populations of pikas (Ochotona princeps) in the Great 
Basin,'' Journal of Mammalogy, 84 no. 1 (2003): 37-54.
    \14\ C. Mortiz and others, ``Impact of a century of climate change 
on small-mammal communities in Yosemite National Park, USA,'' Science 
322(5899)(2008): 261-264.
---------------------------------------------------------------------------
    Mountaintop species are not the only vulnerable ones. In Mesa Verde 
National Park, the Mexican spotted owl-a threatened species-is 
disappearing from the park. The park's chief of natural resources 
attributes this to the drier conditions so far this century-conditions 
consistent with the hotter and drier effects of climate change in the 
interior West.
    Fishing.--Some of the best trout fishing in the western United 
States is in our national parks, including Rocky Mountain. But trout 
are cold-water fish, and higher temperatures could lead to losses of 
western trout populations exceeding 60 percent in certain regions by 
2050.\15\ At Yellowstone, the extreme heat of July 2007 led the 
National Park Service to close 232 miles on 17 prime fishing rivers 
during afternoons. The high temperatures killed enough trout to produce 
the largest fish kill in the park's history. A park biologist predicted 
that it would become the norm for the future.
---------------------------------------------------------------------------
    \15\ United States Global Change Research Program, Global Climate 
Change Impacts int he United States (2009, p. 87.
---------------------------------------------------------------------------
    Overcrowding.--As temperatures soar with a changed climate, to 
escape the oppressive heat people may well flock to cooler mountain 
parks, overcrowding them. In Rocky Mountain National Park, a survey of 
park visitors suggests that under the climate conditions projected by 
2020 enough visitors would come more often and stay longer to increase 
the number of visitor days each year by more than one million-nearly a 
one-third increase.\16\ So far, there has been little attention paid by 
the National Park Service or others on how higher temperatures may 
increase summer visitation to cooler parks, national seashores, and 
national lakeshores-or on how that increased visitation can be 
accommodated. In Canada, researchers concluded that heat-driven 
increases in visitation to Canadian national parks could be so large 
that ``parks that already report visitor-related ecological stress 
would require more intensive visitor management, perhaps including 
strategies such as de-marketing, visitor quotas, and variable pricing 
for peak periods.''\17\ I am not advocating those particular measures, 
just using these suggestions to illustrate that the effects of 
increased visitation could be significant enough to necessitate real 
responses of some kind.
---------------------------------------------------------------------------
    \16\ R.B. Richardson and J.B. Loomis, ``The Effects of Global 
Warming on Mountain Tourism: A Contingent Behavior Methodology,'' 
prepared for Hobbs and others; see note 1.
    \17\ B. Jones and D. Scott, ``Climate change, seasonality and 
visitation to Canada's national parks,'' Department of Geography, 
University of Waterloo, Waterloo, Ontario (2005), p. 2, http://lin.ca/
Uploads/cclr11/CCLR11-132.pdf.
---------------------------------------------------------------------------
    More wildfires.--The United States government, in its overview 
report this year on climate change, noted, ``In the western United 
States, both the frequency of large wildfires and the length of the 
fire season have increased substantially in recent decades, due 
primarily to earlier spring snowmelt and higher spring and summer 
temperatures.'' Wildfires can disrupt summer vacations for park 
visitors. In the summer of 2002, when hot and dry conditions combined 
to produce Colorado's worst fire season in history, the number of July 
visitors to Rocky Mountain National Park dropped by nearly 100,000 from 
the previous year, even without any fires in the park itself. Two years 
earlier, in Mesa Verde National Park, two back-to-back fires burned 
more than half the park and closed it to visitors for nearly three 
weeks.
    I am afraid that I could go on at even greater length, detailing 
other ways in which climate change is affecting our national parks, 
from a loss of glaciers, snowfields, and opportunities for winter 
recreation to a loss of historical and archaeological resources. 
Instead, though, let me turn to what the National Park Service should 
be doing about all this.
    Recommendations for NPS actions.--When it comes to protection of 
the resources and values of the national parks, the National Park 
Service has an obligation under law, its own policies, and its long, 
proud tradition of environmental stewardship to take a leading role. 
``The Service will use all available authorities to protect park 
resources and values from potentially harmful activities,'' the NPS 
Management Policies boldly declares. Sadly, the NPS has not yet 
followed its creed and exercised its authorities to address human 
disruption of the climate and its effects, the greatest threat ever to 
park resources and values. As the United States Government 
Accountability Office concluded in 2007 about the Park Service and 
other federal natural resource management agencies, they:

          have not made climate change a priority, and the agencies' 
        strategic plans do not specifically address climate change. 
        Resource managers focus first on near-term, required 
        activities, leaving less time for addressing longer-term issues 
        such as climate change. In addition, resource managers have 
        limited guidance about whether or how to address climate change 
        and, therefore, are uncertain about what actions, if any, they 
        should take. In general, resource managers lack specific 
        guidance for incorporating climate change into their management 
        actions and planning efforts. Without such guidance, their 
        ability to address climate change and effectively manage 
        resources is constrained.

    Too often, the NPS has so far just looked the other way when it 
comes to climate-change impacts. In preparing in 2000 a management plan 
for Dry Tortugas National Park, at risk of being totally submerged by 
rising seas, the Service wrote about climate-change risks and what to 
do about them: ``These external forces are beyond the scope of this 
plan.''
    Fortunately, change is already underway at the National Park 
Service. President Obama's choice as NPS Director, Jon Jarvis, when he 
was Regional Director of the Service's Pacific West Region, established 
the strongest record of leadership on climate of any senior NPS 
manager. I hope and expect that Director Jarvis will bring the same 
vision to his management of the entire Service, and am confident that 
if he does he will be met by enthusiastic support from other NPS 
managers and employees. I know that frustration is widespread within 
the Service about its failure so far to take a leading role in 
addressing climate change. With proper leadership, I believe that the 
National Park Service will live up to its proud history in taking on 
this major challenge.
    But I certainly do not think that Congress, or the American people, 
should just blindly trust that there will be the needed changes. It 
seems entirely prudent to me for this Subcommittee to hold a thorough 
oversight hearing on what I expect will be major new Park Service plans 
to address climate change, once Jon Jarvis is confirmed and he and 
Secretary Salazar have had a chance to develop those new plans.
    An agenda of actions that would be appropriate for the National 
Park Service in addressing a changing climate and its effects on 
national parks includes the following.
    Making climate change a priority.--Human-caused changes in the 
climate are the greatest threat ever to national parks, and the 
National Park Service should act accordingly. Particular 
recommendations are:

  <bullet> The NPS Director should issue a Director's Order making it 
        clear that addressing climate change and its impacts is among 
        the highest priorities throughout the Service. The Order should 
        launch action on some of the particular recommendations 
        outlined below.
  <bullet> The NPS should amend its Management Policies to incorporate 
        specific references to management responsibilities with respect 
        to climate change and its impacts in parks.
  <bullet> The Park Service should have a separate NPS climate change 
        office within the Service, to ensure crosscutting support for 
        Service actions to address climate change and its impacts in 
        parks. The Administration requested a modest $800,000 for such 
        an office for next fiscal year, but the House appropriations 
        bill would block that new office.

    Expanding scientific knowledge.--Identifying and monitoring climate 
change effects on key resources of national parks are not only 
essential for protection of those resources, but also important for a 
broader understanding of climate change effects in the world at large. 
National parks are areas with spectacular resources, usually much less 
affected by human activities and other stresses than other lands; the 
parks provide some of our very best opportunities to learn how climate 
change is affecting and will affect natural and cultural resources. 
Much of the research I have cited above, such as about a loss of 
today's forests, represents not just what we know about those effects 
in national parks, but all of what we know about those effects 
anywhere. Specific recommendations:

  <bullet> The NPS should identify in every park the resources and 
        processes at risk from climate change. This need not await full 
        park management planning efforts; it can be accomplished 
        through summaries of the literature, guided research, 
        gatherings of experts, and simple brainstorming. Climate 
        Friendly Parks workshops (see below) are a beginning.
  <bullet> The NPS should review its Inventory and Monitoring Program, 
        in which every national park has established a number of vital 
        signs for monitoring change over time; these should be reviewed 
        to ensure they adequately include the impacts of climate 
        change. If not-and I fear that will nearly always be the case-
        the vital signs and the monitoring plans should be updated.

    Planning and managing to protect resources.--According to the 
Service's Management Policies, ``NPS managers must always seek ways to 
avoid, or minimize to the greatest degree possible, adverse impacts on 
park resources and values.'' To do this in the case of climate change 
and its impacts, specific recommendations are:

  <bullet> The NPS should develop park-specific and resource-specific 
        plans for protection of the resources most at risk in 
        individual parks.
  <bullet> The NPS should be innovative in considering and using a 
        broad array of tools, including unconventional ones, to 
        preserve resources most at risk in individual parks. Protected 
        corridors to allow migration of species between areas of 
        changing habitat may often be necessary, which would require 
        cooperative action with other land managers. Experience with 
        ecosystem-wide approaches such as the one by different federal 
        agencies through the Greater Yellowstone Coordinating Committee 
        should be examined for lessons that can be applied to deal on a 
        landscape-wide scale with climate change and its impacts.
  <bullet> The NPS should plan for different possible future scenarios-
        plausible conditions that could occur but may not. To await 
        certainty in what the future will bring may take away the 
        ability to address it in a sufficient and timely manner.
  <bullet> The NPS should consider the combined effects of climate 
        change and of other stresses on park resources and values and 
        work to reduce those other stresses when doing so may ease the 
        effects of climate change.

    Reducing emissions.--National parks are among the most important 
places to concentrate efforts to reduce emissions of heat-trapping 
gases, because successful actions there can inspire the millions of 
Americans visiting the parks to make and support similar efforts 
elsewhere. Specific recommendations:

  <bullet> The NPS should work to reduce the emissions from its own 
        operations, on a Service-wide basis, as undertaken in the 
        Pacific West Region through Regional Director Jarvis's Climate 
        Change Leadership Initiative.
  <bullet> The NPS should give an even greater priority to reducing 
        emissions from visitor activities than from its own operations, 
        as emissions from visitor activities dwarf those from NPS 
        operations.
  <bullet> The NPS and Congress should review the Federal Lands 
        Recreation Enhancement Act to consider the use of funds from 
        national park entrance and recreation fees to address climate 
        change and its impacts in national parks, so long as 
        information on those expenditures and their purposes and 
        accomplishments is communicated to park visitors.

    Expanding Climate Friendly Parks.--Fifty-three national parks (out 
of 391) have held an initial workshop in the Climate Friendly Parks 
program, NPS's most visible climate-change initiative to date. That 
program is a partnership between NPS and the United States 
Environmental Protection Agency to help those parks protect their 
natural and cultural resources from climate change. Twenty-three have 
conducted an inventory of their emissions of heat-trapping gases, and 
16 have action plans to reduce their emissions. That is a start, but 
clearly more can be done. Recommendations:

  <bullet> The NPS should make a national commitment and develop a 
        schedule to expand the Climate Friendly Parks program to all 
        parks (with exceptions only for those few parks with small 
        enough operations and visitation where doing so would not make 
        sense.)
  <bullet> The NPS should post online summaries of all Climate Friendly 
        Parks workshops in particular parks. (Not all now are posted.)
  <bullet> The NPS should post online all emission inventories and 
        climate action plans for parks for which they are completed. 
        (Not all now are posted.)

    Communicating with others.--With 275 million visitor-days of 
visitation to national parks in 2008, the NPS has an enormous, unique 
opportunity to communicate what climate change may do to us and what we 
can do about it. Recommendations:

  <bullet> NPS officials, beginning with the Director, should speak out 
        publicly about the threats that climate change and its impacts 
        pose to national parks. The NPS Management Policies state that 
        when park resources and values are at risk from external 
        threats, ``It is appropriate for superintendents to engage 
        constructively with the broader community in the same way that 
        any good neighbor would. . . When engaged in these activities, 
        superintendents should promote better understanding and 
        communication by documenting the park's concerns and by sharing 
        them with all who are interested.''
  <bullet> NPS should require concessionaires in a position to provide 
        environmental education to park visitors (and many are required 
        to do so) to provide information on climate change and its 
        effects in national parks and what NPS and the concessionaires 
        are doing to address them.

    Partnering with other agencies and organizations.--Much of the best 
work done in national parks to understand climate change and its 
effects is done by others besides the NPS, including the United States 
Geological Survey, universities, and others. Cooperation with other 
federal, state, and local natural resources agencies and land managers 
can also be more important than ever in dealing with the broad-scale 
effects of climate changes. A recommendation:

  <bullet> The NPS should continue and even expand its cooperative 
        efforts with other researchers, land management agencies, and 
        others to address climate change and its effects in national 
        parks and surrounding lands.

    Exercising international leadership.--The National Park Service is 
the best-known and most respected natural resource management agency in 
the world. A recommendation:

  <bullet> The NPS should exercise leadership in promoting cooperation 
        and communication among natural resource management agencies 
        around the world in how to address climate change and its 
        impacts in protected areas.

    In taking these actions, the National Park Service will need 
support from this Subcommittee, Congress as a whole, and, especially, 
the American people. We Americans deeply love our national parks, and 
have always rallied around when they have been in peril. Now, more than 
ever, is such a time.

    Senator Udall. Thank you, Mr. Saunders, for that insightful 
and compelling testimony, and duly noted that an oversight 
hearing would make great sense.
    In the regular order, if we were in Washington, DC, I would 
recognize Senators in turn for anywhere from 5 to 10 minutes. I 
want to be a gracious host, so I want recognize Senator McCain 
initially for something on the order of 10 to 15 minutes, and 
we will have a series of conversations and questions over the 
next 50 minutes or so that's left in the hearing.
    So, let me recognize the great Senator from Arizona, John 
McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    I want to thank the witnesses again. This has been 
extremely helpful.
    Ms. Madden, thank you for your continued service to the 
State of Colorado. You stated the Upper Colorado River Basin 
could decline in the mid- to late-21st centuries, by 6 percent 
to 20 percent. What does this do to activities on the Upper 
Colorado River Basin?
    Ms. Madden. Again, There's folks to my left and right who 
know this more in detail than I do. The report I referred to 
goes into that into much further detail.
    I do want to note that one of the authors shares the same 
last name as your neighbor there. Randy Udall, is also an 
author of this, as is Stephen Saunders. So, Stephen might be 
able to answer that a little better.
    But, there's many things that we don't know at this point 
in time, and we're developing more studies on what's going to 
go on in the Colorado River Basin and our other river basins. 
As it becomes--if drought areas affect different parts of the 
State, it'll effect timing and----
    Senator McCain. Has it already affected the ski industry?
    Ms. Madden. Yes, it has, in the sense that when they're 
making snow, they can't afford for that snow to melt. So, they 
have to wait until they know any snow that they make will stay 
frozen. So, it means that the season starts a little bit later 
and it ends a little bit sooner.
    Senator McCain. Thank you.
    Dr. Schimel, have you seen effects on climate change from 
overseas, specifically China?
    Mr. Schimel. If you're referring to the transport of 
material, one of the very complex impacts on the hydrology, the 
water resources, of Colorado is the deposition of dust on snow. 
The deposition of dust on the snowpack darkens it and makes it 
melt more quickly. We have seen a dramatic increase in the 
amount of dust deposited on the Colorado snowpack over the past 
century and a half, and much more dramatically, even, in recent 
decades.
    There are several primary sources of this material. The 
first one is dust originating from land use in the Four Corners 
area, but one of the significant sources of dust is, in fact, 
transpacific transport of dust from the Asian continent. This 
is one of the better examples of the complex, interwoven nature 
of the global environment.
    So, yes, we do see consequences--very difficult to quantify 
at this time--but we do see consequences of material being 
transported globally.
    Senator McCain. Ms. Madden, have you seen any results yet 
that you could report on the Smart Grid test project?
    Ms. Madden. Yes. Just to the point that Dr. Schimel just 
made, I took a trip to Tanzania this summer, and worked on some 
issues around this black soot that travels, and it's largely 
among many other sources, but there's a significant source 
coming out of open fires. So, there's been some work to allow 
people in Africa and Asia to have more efficient cookstoves, so 
they're not creating that black soot that then, of course, 
attracts the sunlight and melts ice faster.
    The Smart Grid--one is in Boulder and one is in Fort 
Collins--Xcel has put over a $100 million into Boulder to do 
this, and one of the things that they're seeing, and other 
studies have also proved out, is, when people have that 
information about how much energy they are using, they get a 
little competitive about it, and they want to bring it down, 
which is great. So, these monitors allow you to see how much 
energy you're using, where it's--where you're getting it from, 
and perhaps even doing things like telling your dishwasher to 
go on at 2 a.m., when the grid--when the supply on the grid is 
much less demanding.
    The vehicle-to-grid pilot project allows your car to become 
a little distributed-generation resource, and puts energy back 
onto the grid. Fort Collins has a district that they're 
actually calling the ``zero energy district.'' Their program's 
called FortZED, for ``zero energy district.'' So, both those 
cities are really moving things along; and, matter of fact, I 
think that they are farther along than any other place in the 
United States.
    Senator McCain. Dr. Frost, have you got any stimulus money 
for this effort--research or addressing climate change?
    Mr. Frost. No, sir. Park Service received, I think, around 
$750 million of stimulus money, and the majority of that went 
to work on our maintenance backlog. The other portion went--
indirectly, yes, we did get a little bit of money to work on 
some invasive-species issues; so, again, trying to remove 
stresses from the environment. Then, the rest of the money went 
help restore some abandoned mine lands. that's so----
    Senator McCain. Obviously you could use some climate change 
money, then.
    Mr. Frost. Yes, we could. I will not argue with you there.
    [Laughter.]
    Senator McCain. When Jon Jarvis is confirmed by the 
Senate--and we all look forward to having that happen soon, 
as--when he was the Pacific West regional director, he 
instituted a goal to have the parks within the region to have 
carbon-neutral park operation by 2016. Would that be a good 
idea, to expand that to the rest of the country?
    Mr. Frost. It would be wonderful. Let me just relate a 
quick----
    Senator McCain. Do you think it can be done?
    Mr. Frost. I think it'll be difficult, but I think, as a 
leader of conservation and as a teacher of--as a teacher to our 
kids, the Park Service should step up to the challenge. It may 
take us a few years to do it, but I think it's a worthy goal 
and one that we should set.
    Mr. Saunders. Senator, may I chime in on that? Just to 
point----
    Senator McCain. Yes.
    Mr. Saunders [continuing]. Out that Jon Jarvis has done a 
great job, and that's one of the things that's encouraging 
about his being picked to be the whole Park Service director. 
However, they did take the date out of that goal, just last 
month, so they no longer have a goal of doing that by 2016.
    Senator McCain. Is that because he left?
    Mr. Saunders. No, he hadn't----
    [Laughter.]
    Mr. Saunders [continuing]. He hasn't actually left yet. I 
have not had much of an exchange yet with people about the 
changes, other than I understand that they just found it was 
hard to be able to get there in the case of all 56 parks in 
that region, or something. So, now they have a vision, without 
a date, of having the Park Service operations be carbon-neutral 
``sometime.''
    Senator McCain. I think history shows, unless we give a 
date-certain, that date never arrives.
    Mr. Saunders, I don't mean to be too parochial, I know this 
is a very big issue, but we've just traveled around the Rocky 
Mountain National Park, here. With Chairman Udall, it's always 
an enlightening and enjoyable educational experience, but an 
exhausting endurance test, also----
    [Laughter.]
    Senator McCain. As you know, but I've been very----
    Senator Udall. Takes one to know one.
    Senator McCain. Obviously, one of the most striking issues 
is this pine-beetle issue.
    Mr. Saunders. Yes, sir.
    Senator McCain. What--it's a unbelievable. Every home in 
America should see what's happening; every citizen should see 
what's happening here. Do you have any specifics, besides the 
whole issue of climate change, as to how, perhaps, we could 
address this--what may turn out to be one of the most 
devastating thing that's ever happened to our national parks, 
at least here?
    Mr. Saunders. I'm afraid I don't have an answer for what we 
do to deal with the changes in the ecosystem. The first thing 
that I would say, though, is that, I certainly hear people that 
say, ``Mountain pine beetles are a natural part of the 
forest.'' That is true, just as the seas are a natural part of 
the world. If we--in a few years, or in Everglades or 
someplace, and we see that the seas have risen higher up than 
ever before, and spread farther over the land than ever before, 
I would not think that's a natural phenomenon anymore. I would 
look at that, and I would think, ``That is nature that we have 
knocked out of kilter.'' That's how I----
    Senator McCain. We've never----
    Mr. Saunders. That's how I----
    Senator McCain. We've never seen an infestation of this 
scale, have we?
    Mr. Saunders. No. That's how I look at the bark beetles. 
Yes, bark beetles are a natural part of the forest. But, 
because we have warmed up the winters, and we've warmed up the 
summers, the beetles are now going higher than they ever have 
before, they are reproducing at a quicker rate. Above 9,000 
feet, it used to take them 2 years to have a single generation; 
now they do it in a single year. At lower elevations, it used 
to be one generation per year, and now we are seeing two 
generations per year. Their period is longer. We used to have 
very deep, cold periods that would knock back the populations 
during the winter. We've lost that natural check on their 
population. So, it is no longer a natural phenomenon, it's 
something that started out as a natural phenomenon.
    I, like you, wish that everybody would see that, and I wish 
that the National Park Service and other agencies were doing a 
better job of explaining to people why it has reached the scale 
that it has now reached. I think that would do a whole lot. As 
Dr. Frost pointed out, there are 275 million visitor days of 
visitation to the national parks every year. The National Park 
Service has an enormous opportunity to educate people. The 
national parks are a place where our impacts are the most 
visible. If we are doing a proper job--we, the whole country, 
are doing a proper job of pointing out the consequences as they 
happen, I think our attitudes will change. Once our attitudes 
change, our actions will change, and we will be more interested 
in meeting our energy needs in ways that don't destroy our 
forests.
    Ms. Madden. May I add on to something----
    Senator McCain. Please.
    Ms. Madden [continuing]. Here. Thank you.
    When you look at these, they almost look like matchsticks, 
which is a really scary thought. I mean, they're--you just know 
there's going to be, you know, one of two results: they're 
going to fall down or they're going to light on fire. So, we've 
been looking at these as potentials for energy around biomass. 
A lot of our--a large portion of our forests are on Federal 
land. So, I think the State and the Federal forest services 
have to work together about how we're going to deal with these, 
and if there's any real potential for using these for biomass.
    One story in Colorado--we had one of the last coal-burning 
boilers in a grade school, I think probably in the United 
States, and it broke down in the middle of the winter, and we 
were able to quickly create a new boiler system made out of 
beetle-kill highly efficient wood pellets. So, it was really 
just this very holistic approach to this.
    So, I think there's great answers. Of course, you know, 
there's--it's very complicated how we would be able to get this 
wood, and use it, and where you produce it, and do you haul it 
on trucks, all those things. But, I think, using a least some 
portion of this as biomass is perhaps a good solution.
    Senator McCain. I thank you. I thank the witnesses.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator McCain.
    Let me address some questions, and we'll continue this 
conversation. Then if Senator McCain has additional questions, 
I'll yield to him again.
    Dr. Frost, to follow up on what Senator McCain had to say 
and what Mr. Saunders had to say about the beetle-kill 
situation, would you tell us a little bit about what the park 
is doing? Are you thinning? Are you using other treatments? Is 
the process effective? To put a final question in the mix, what 
kind of funding do you have, and is it adequate?
    Mr. Frost. Always comes back to money, doesn't it?
    The park is responding. The Park Service, as you well know, 
is a little bit different than the Forest Service and the BLM. 
How we're responding to the beetle-kill is, trying to protect 
health and human safety. The parks identified about a million 
trees that need to come down, and they're primarily around 
campgrounds and visitor services areas, so----
    Senator Udall. What was the term you used, ``If you sit, 
stand, or sleep as a visitor, the Park Service is focused on 
mitigating or eliminating the danger in those''----
    Mr. Frost. Right----
    Senator Udall.--``settings''?
    Mr. Frost [continuing]. That's our high priority. We don't 
have plans to do any other types of removal activity--sort of, 
out in the back-country. The Park Service policies state that 
we want to encourage natural processes. While, the natural--as 
Dr. Saunders has stated, the outbreak of beetles may--beyond a 
natural process. We want to try and maintain those processes as 
much as we can in national parks. So, we are not--we don't have 
plans to thin the forests, to cut the trees down, but to--but, 
where it is responsible, where it is for health and human 
safety and close to our neighbors, that we are making plans in 
order to do that.
    In terms of funding, I don't think there's any--well, I'm 
pretty sure there is not line item in the Park Service budget 
that has to deal with beetle-kill. Superintendents deal with 
this on a regular basis; they redirect funds from other 
projects, so other things don't get done. That's the way we've 
done business for many, many years. I suspect we could use some 
of our fee money, because it is related directly to fee 
services. I assume that that has happened in parks across the 
country.
    Senator Udall. I assume, on pretty good authority, that 
there's an increasing interest, on the group of political 
subdivisions, to coordinate, whether it's the Forest Service at 
the national level or it's our State forester, county of 
Larimer, even the town of Estes Park--there's a much greater 
awareness that potential fire events don't respect boundaries, 
that Mother Nature has evolved and developed in a way that 
didn't take into account the need for human political----
    Mr. Frost. Right.
    Senator Udall [continuing]. Entities, but that there's much 
that's happening there. I know there could be more, and I look 
forward to playing a role to encouraging, to cajoling, to even 
sternly saying to the various parties, ``Look, you've got to 
work together and combine these resources.'' I think just, for 
example, in the eastern edge of the park, as you travel down to 
the northern area of Boulder County, there are homeowners and 
others who are concerned about kill-trees in the park itself, 
and that you're working to find a way to assuage their 
concerns.
    Mr. Frost. Definitely. I would suggest that our fire-attack 
process may change in these areas, that we may put these--as 
opposed to a let-burn policy in some of our back country, we 
would put these fires out fairly quickly in order to not have a 
huge event that could come into the front country and cause a 
lot of damage.
    Senator Udall. If I could continue this line of discussion, 
and I want to extend an opening to each of you on the panel to 
comment, and also in the spirit of Senator McCain, who's always 
forward-looking--what happened in the past, happened in the 
past; now we have new challenges in front of us. Is there 
anything, in hindsight, that the Park Service could have done 
to mitigate these impacts on the park or in the surrounding 
communities?
    Mr. Frost. Whoa, that's a great question. I don't know, 
maybe I could turn to Superintendent Baker----
    [Laughter.]
    Mr. Frost. I mean, that's a tough--it's really----
    Senator Udall. We'll ask Vaughn that question for the 
record.
    [Laughter.]
    Senator Udall. I know he'd--otherwise, he'd feel left out.
    Mr. Frost. That's a tough question, Senator. I mean, we 
often say hindsight's 20/20, but, you know, climate change is 
such a large issue, and there--and the beetle outbreak is 
larger than climate change. It has to do with how we've fought 
fires over the past 100 years. We have even stands of forest, 
so we have this monoculture out there. So, as opposed to having 
a distributed--you know, more of a distributed age class of 
trees, we have this mature growth out there. So, we don't have 
new recruits coming up. It's how we've managed our--a variety 
of other things.
    So, it's not just the beetles, it's--the beetles is a key 
part, but it's a variety of other of our management techniques.
    So, could have we prevented it? I don't know if we could 
have prevented it, in the context of a larger climate change 
issue, but we sure could have changed things. We hope that, as 
our stands do change over time, that we manage forest fires 
differently, we manage disease outbreaks differently, we----
    Senator Udall. When you say ``stands,'' you mean stands of 
trees, not----
    Mr. Frost. Stands of trees, yes.
    Senator Udall [continuing]. Political stands or----
    Mr. Frost. No, no, no. That would be----
    Senator Udall. Yes.
    Mr. Frost [continuing]. Your job, not mine.
    Senator Udall. All right.
    [Laughter.]
    Senator Udall. Dr. Schimel, you care to comment?
    Mr. Schimel. Yes. I think that your question bears on an 
issue that's of great concern. If we look at the efforts that 
we're making to understand the physical climate system, we have 
large national investments in integrating a wide range of 
observations--from surface observations, airborne, satellite 
observations--into models that provide some degree of 
predicative capability, fairly well understood for the weather, 
in its early days for climate. But, when we look at the issue 
of forecasting potential impacts of climate change, things like 
the pine-beetle outbreaks still come as surprises to us, 
because we aren't investing very much resource in attempting to 
forecast the ecological consequences of climate change. As we 
begin to develop more targeted observing systems, the potential 
that we'll be able to forecast these phenomena, that today come 
as surprises, becomes a real possibility.
    It's a different sort of thought process than we've usually 
used in natural resource science, where most of this sort of 
modeling has been done in a very investigator-oriented sort of 
a way. But, the problems are complex, they require drawing in 
all sorts of information. The beetle problem is a beautiful 
one, because it's an effect of climate, it's an effect of 100 
years of land-use history, it's an effect of the--exacerbated 
by the recent drought, and so on. Right now, we don't have the 
capability to integrate information about all those different 
sorts of stresses on the system to say what might be the next 
surprise after the mountain pine beetle.
    Senator Udall. So, again, I hear you suggesting----
    Senator McCain. Looks like Mr. Saunders has a----
    Senator Udall [continuing]. We'll go to--that you're 
saying, ``Let's look at applying all of this data, let's look 
at even more sophisticated modeling.'' But, it has to be of use 
to people in communities, has to be of use to policymakers, has 
to be of use to the State forester and many others who are on 
the front lines.
    I know Senator McCain chaired the Commerce Committee for a 
number of years. He knows the importance of our research 
institutions and of actually turning that data into something 
that's useful to people on the ground.
    Mr. Schimel. That's right. Right now, the effort to do this 
sort of forecasting is being done by individual researchers or 
small research groups, and the value added to turn that into 
information that can be used by resource managers happens in at 
best, a haphazard way, if it happens at all. So, the transfer 
of--well, first of all, there's not that much ecological 
forecasting being done; and to the extent that it is, it gets 
into the hands of managers in a very haphazard sort of a way.
    Senator Udall. We'd welcome further thoughts and comments, 
and I know you'll be forthcoming with us.
    Mr. Saunders.
    Mr. Saunders. There is, again, a resource question, as 
there always is here, in terms of what the Park Service can 
understand, what the Park Service can forecast, what the Park 
Service may do in planning how to adapt. I mentioned a long-
term idea about getting more money from the entrance fees. A 
short-term thing, that is waiting for you when you get back to 
Washington, is the spending bill for the next fiscal year. The 
Park Service requested $10 million for a new climate change 
initiative for fiscal year 2010. The House committee bill 
allows that full $10 million, but prohibits the Park Service 
from setting up a climate change office.
    I think the Park Service should have a climate change 
office, myself; not that that one office is going to be the 
sole answer, but to have, in the Washington headquarters or 
somewhere in the system, one central place where all of the 
climate change information is coming together and being shared 
and all that, strikes me as making excellent sense.
    On the Senate side, the Senate committee bill struck $2 
million out of that $10 million, did not prohibit the climate 
change office from taking place, but lowered the dollar amount.
    If this is the largest threat the national parks system 
faces, $10 million does not strike me as very much money to be 
trying to figure out how we're going to deal with this. This 
bill is not done. Certainly it would be crazy for Dr. Frost to 
come before you and criticize what your friends elsewhere are 
doing, in terms of the budget for next year, but let me just 
point that out to you; that may be something that, having seen 
firsthand all that there is to deal with, maybe you can go back 
and help move that small bit of funding along.
    Senator Udall. Let me turn back to Senator McCain. If he 
doesn't talk about and ask questions about water, I will.
    Senator McCain. Mr. Saunders, to follow up on your comment, 
I was surprised, when were talking about $780 billion of 
stimulus funding, that more of it did not go to this issue. I 
think it creates jobs. I think addressing the issue of climate 
change, if you appreciate the enormity of it, is going to 
create a lot of jobs in the future, and we'd better get a hold 
of it. So, I'll go back and we'll look at this process of--and 
I'm not sure why the Park Service should be prevented from 
establishing a climate change office.
    I don't have anything more, Mr. Chairman, except to say 
that I thank the witnesses. I thank them for their hard work.
    I guess while I'm here, I should, on behalf of the citizens 
of the state of Arizona, thank you for the water.
    [Laughter.]
    Senator McCain. My predecessor in the Senate, Senator Barry 
Goldwater, used to say that, ``In Arizona, we have so little 
water that the trees chase the dogs.''
    [Laughter.]
    Senator McCain. From the projections on the Colorado River 
flow, that may be more true than humorous.
    So, I do want to thank the witnesses. I want to thank the 
people of Estes Park, and the great job they do in creating 
such a wonderful environment here; and what a great experience 
it was to spend the night at the Stanley Hotel. I didn't see a 
single ghost, but----
    [Laughter.]
    Senator McCain. Maybe I didn't stay long enough.
    I thank you, Mr. Chairman. I thank the witnesses.
    Senator Udall. Thank you, Senator McCain.
    Let me direct a couple more questions to the panel. I did 
mention water, and Senator McCain did. We thought about taking 
him over to the Grand Lakes side, and we thought he'd be so 
excited to see the headwaters of the Colorado River, we didn't 
predict what he might do, although John was also excited to 
hear about the moose and the wolverine sighting. I found 
something out, I didn't know that there are otters in Rocky 
Mountain National Park; because Senator McCain had the insight 
to ask one of the rangers about the otter population.
    But, I want to direct this question to Dr. Frost and others 
who might comment--since we're, as I've said, literally at the 
headwaters of Colorado River and acutely affected by a warming 
climate, are there vegetation or soil management techniques 
that could be employed to reduce water loss so that we can be 
good partners with our friends in the lower-basin States, and 
also take care of our own needs, obviously?
    Mr. Frost. Again, going to back to some of my earlier 
comments, you know, we try to keep natural processes in force, 
and to reduce stressors, and we need to continue to do that, in 
the face of a changing climate.
    You know, if we have a massive beetle kill and we have a 
fire, we have a potential of a huge loss of erosion and water 
going, you know--water and soil running downstream, and that 
soil goes into reservoirs that clogs up the reservoirs, the 
storage capacity is reduced. So, we need to--you know, we need 
to continue to try and reduce the stressors on our environment 
as much as we can to--especially in parks, and try and 
encourage those natural processes. In areas that are--that have 
been--had some damage, we need to, you know, aggressively 
restore those areas. Those types of projects would have been 
great projects for stimulus money, to go through those areas 
that have been degraded in national parks, and to get them back 
into functioning ecosystems.
    So, that's our primary goal in national parks, is to keep 
those natural systems functioning in a way that will produce 
those ecosystem services that we could never pay for. I mean, 
and that's really the key, is--the ecosystem of our national 
parks provides so much service to us that we take for granted, 
and our goal is to just keep those systems functioning the best 
to our ability.
    Senator Udall. Other panel members, comment on how we 
enhance water supplies, or at least maintain the levels that 
we've come to depend on, here in the West.
    Mr. Schimel. Just to mention this point about dust on snow, 
that is one of the major impacts increasing the rate of runoff 
and making it more difficult to capture that water for later 
consumptive use. So, land management that minimizes at least 
the continental United States source of dust to the Rockies 
could fairly substantially improve the job of the water 
managers today.
    Senator Udall. Have not the Western Governors been working 
on that challenge? Do they not have a policy now that, at 
least, is in its nascent stages of being developed?
    Mr. Schimel. That is exactly correct, yes.
    Senator Udall. Leader Madden, you----
    Ms. Madden. Thank you. I just want to brag a little bit 
about what Dr. Schimel does, and who--and he's associated with 
NEON. They have 60 observatory sites around the Nation?
    Mr. Schimel. Planned.
    Ms. Madden. Planned sites around the Nation. Because we 
really--we always need the data to rely on, and I think NEON 
is, just, a pretty spectacular entity that he's responsible for 
starting. So, I want to just thank him.
    You know my world, it's politics and policy. In the State, 
there's a group of folks who sort of, you know, run the water 
show, and we call them ``water buffalos.'' They're better at 
stopping bills then they are at actually passing bills, and we 
have a tough time moving this whole policy forward, because 
it's just--we have a prior appropriation system which, you 
know, the--they say, you know, ``Whiskey's for drinking, and 
water's for fighting, in Colorado,'' and you see that every 
time you try to make some sort of changes. So, we've slowly 
made some changes in the State legislature around--making sure 
that we're conserving this resource.
    It is very tough, and I think, as we work more regionally, 
that'll become very--
    Senator McCain. What is the rationale for the opposition?
    Ms. Madden. One, just being afraid of change. You know, we 
have the system that works. We have very old water rights in 
the State and people are afraid that they're going to mess with 
them. Even things, just like, when water passes through the 
State, if you conserve water, maybe it won't--or if you 
conserve water, it might change when--what time of year it 
leaves the State. So, you know, there's political, there's 
science, there's all kinds of reasons that people are afraid of 
any sort of change.
    We were able to pass a bill, just--if a new neighborhood is 
going up, they had to prove they actually had water for it. 
That was fought, initially.
    So, I think it's just being afraid of change. We are a 
headwaters State for four different rivers, so the buck stops 
here, literally, with that water. We have to send a certain 
amount both east and west. So, Colorado's going to have to come 
to grips with conserving water. But, I think the more we can 
work regionally, the better we'll all be.
    Senator Udall. Mr. Saunders, do you have a comment----
    Mr. Saunders. No----
    Senator Udall [continuing]. Directed to water?
    Mr. Saunders [continuing]. Thank you.
    Senator Udall. Following on what Alice had to say, and the 
good doctors, we did just pass this new law, you can collect 
rainwater. Am I correct? I think--as you know, Arizona has 
similar statutes. First in time, first in right. The rainwater 
doesn't belong to anybody, but the watersheds themselves. So, 
that's an important step for--there are also cost models that 
need to be changed, from what I understand--where we reduce 
costs, the more water you use. It's a similar challenge we face 
in the world of electricity production, where we have an 
opportunity to create cost models where you actually make 
money, as a utility or as a water utility or as a water 
provider, if you use less. There's some creative ways in which 
to do that.
    Senator McCain and I got to talking about tamarisk, and 
some of the experiments that are occurring with tamarisk. There 
are other national park units were tamarisk is a scourge. I 
hate to say that about any living thing, but it's----
    Mr. Frost. There's lots of them out there.
    Senator Udall. There's lots of them. Would you care to 
comment on tamarisk and the efforts underway to restrict its 
range and perhaps make it more difficult for tamarisk to 
thrive?
    Mr. Frost. There are a variety of efforts going on. You 
know, tamarisk is, again, one of these invasive exotic species 
that we talk about, sort of, in generalities, and this one of 
the things that have really taken over. It was originally 
brought into the country, you know, as a water--as a stabilizer 
of river banks. So, it was planted everywhere in order to 
stabilize these river banks. What it has done is, now it's 
sucking water out of the ground faster than we can talk. So, I 
know, in the Grand Canyon--if you take a float-trip down the 
Grand Canyon, there used to be willows down there. You know, 
the big willow tree that John Wesley Powell sat under, is--you 
almost can't see it anymore cause of tamarisk. I mean, you see 
tamarisk--I've seen tamarisk, like, this big, which is just 
extraordinary. It's just sucking water up. It's replacing the 
native vegetation. It has consequences for wildlife. Tackling a 
problem of that magnitude is extraordinary.
    So, what the Park Service has done, initially, is to keep 
the spread of tamarisk going up from the drainages. You know, 
water in the Grand Canyon is a critical substance; and where 
you have seeps and springs, you know, it's like 1 percent of 
the land mass, but, like, 90 percent of the biodiversity. If 
you get tamarisk and exotic species in there----
    So, the Park Service is taking a very aggressive stance in 
the national--in Grand Canyon--to work up those drainages and 
keep it contained. We're not--we don't have the capacity, right 
now, to eliminate that in the main stream of Colorado. But, if 
we can keep it contained and keep it out of the side 
drainages--and actually, that's where the big push is going on.
    There's other areas in--I think, at Glen Canyon, where 
they're actually doing--they've got some beetles that they've 
released, from Asia, that are native predators of tamarisk, and 
they've done a lot of trials to make sure that they're not 
going to kill native--other native species. But, they let these 
beetles out, and they go through and the devastate the tamarisk 
stand. Sometimes you have to go back and do some follow-up.
    There's also--there's a volunteer group in Glen Canyon 
that--this guy--and I can't remember his name; I wish I could--
but, he lives, dies, and breathes to pull exotic species around 
Glen Canyon. He'll put together a volunteer group, jump on a 
boat, go up the reservoir, and they'll just spend a day, or a 
week, 10 days, out in the field, and do nothing but pulling 
weeds. It's inspiration like that, that is just tremendous, 
that helps us address these problems in ways that we couldn't 
do it by ourselves, because of lack of manpower and lack of 
funding.
    Senator Udall. Yes, I note those volunteer organizations 
that are affiliated with, I think, almost every national park 
unit, would be a real resource. I see a number of the lovers of 
Rocky Mountain National Park here in the audience, who've, at 
times, slapped me on the back and at times, slapped me upside 
the head----
    [Laughter.]
    Senator Udall [continuing]. When you thought I haven't been 
doing the right thing on behalf of Rocky Mountain National 
Park.
    Let me ask one last question, give each one of you a change 
to comment, and then we'll see if Senator McCain has any final 
words, and we'll bring the hearing to close.
    Dr. Frost, Dr. Schimel, Ms. Madden, Mr. Saunders, you all 
implied, and in some cases were specific, about the threats 
that you see from climate change in relationship to the West 
and in Colorado, and I'm going to put Arizona on that list, as 
well. Can you explain why Colorado, why Arizona, based on these 
models, would be affected more significantly than some other 
areas of our country--or of the world, for that matter?
    Mr. Frost. I think ``location, location, location'' is part 
of the deal, is, you know--Arizona--you look at the Southwest, 
it's where those--it's how the weather patterns have developed 
over time, and the models suggest that those weather--as those 
weather patterns change, it's going to get dryer, hotter, and 
droughts are going to be extended. In--and so, it's--to me, 
it's just a fact of location, you know. If Colorado happened to 
be in--this doesn't make any sense but----
    [Laughter.]
    Mr. Frost [continuing]. If Colorado happened to be in 
Montana----
    [Laughter.]
    Mr. Frost [continuing]. They'd be another--they'd be a 
different suite of problems. So, I think, the problems are 
unique to Colorado and Arizona, but a lot has to do with the 
location, the terrain--the physical terrain, the type of 
vegetation, and then, obviously, the impacts that humans have 
had on the environment. Iin fact, it may not be as bad in some 
areas, because the human impact hasn't been as great as in 
other areas.
    Senator Udall. Dr. Schimel, you care to comment?
    Mr. Schimel. Scientifically, the impacts of climate change 
on natural resources tend to be at a maximum when the effect of 
warming is combined with drying. Within the United States, 
Colorado and Arizona are in that zone that's experiencing both 
warmer temperatures and less precipitation. Models project that 
those two trends will continue. That means that the impact on 
vegetation, on in-stream organisms, fish, insects, and the 
plants that depend on the streams, are going to be very 
dramatically affected.
    There are two other aspects of the environment. One is the 
alpine environment, Islands in the Sky. As tree line pushes up, 
as temperatures warm, and the temperature becomes warmer at 
high elevations, those are environments that, literally, will 
be pushed off the tops of the mountains--not move north or 
somewhere else, but they have nowhere to go.
    Finally, of course, Colorado is part of the grassland 
region, as well. The grasslands of Colorado were devastated 
during the Dust Bowl, and again in the droughts of the 1950s. 
That's likely to happen again. If there's extensive warming and 
drying in the Great Plains, we'll see both the native 
grasslands and our agricultural systems there having to cope 
with a very, very stressful sort of combination of impacts.
    Ms. Madden. I would just say that cultures and economies 
develop around the way things are, and, if you're lucky, you 
can maybe have some visionaries who see into the future, and 
you can slowly change things. These changes have come on hard 
and they've come on fast. I don't think we were prepared, and I 
don't think we've acted quickly enough, politically. I think 
everyone now seems to be concerned and very on the ball, and I 
just hope that we can take the political actions that are 
necessary to change this.
    I--you know, I live in a world where I want to know what 
I've accomplished by the end of the day, and so my focus is 
really around things like fuel-switching and increasing what we 
use for natural gas, energy efficiency, reaching into our 
existing housing stock, and making sure all of our buildings 
are more efficient, increasing the use of renewable energy, and 
just, then, knowing that we have reduced the greenhouse gas 
emissions in this State. These are things that can be done 
fairly quickly. I think it's incredibly important, and we have 
a real responsibility to do it.
    Senator Udall. Stephen, do you have a----
    Mr. Saunders. You've----
    Senator Udall [continuing]. Final comment?
    Mr. Saunders [continuing]. You've heard us say, several 
times, that here ``climate change'' means being both hotter and 
dryer. They work back and forth. Because we're hotter, we're 
going to be dryer. The scientists say if we have a 10-percent 
reduction in the precipitation, we'll have a 20-percent 
reduction in the stream flow. That's because the rate of 
evaporation is going to go up.
    Because we are dryer, we're also going to be hotter. A 
human body cools from sweat evaporating. A planet cools, also, 
from the evaporation of the water. If we have less water to 
evaporate, the heat stays in the ground, if you will. So, those 
two things play back and forth and make each other worse.
    Senator Udall. Thank you for taking the time to be with us 
today.
    I want to thank everybody in the audience for taking time 
to come and participate as a citizen.
    When I was so fortunate to represent the 2nd Congressional 
District in the House of Representatives, initially I 
represented the lower third of the park in Boulder County, then 
the district changed to--John, I represented three-quarters of 
the park, including the west side. Now, I have the great 
fortune--it's all mine. I represent----
    [Laughter.]
    Senator Udall [continuing]. All of Rocky Mountain National 
Park in the United States Senate.
    The town of Estes Park, thank you for your gracious 
hospitality.
    Again, I want to thank my good friend, one of the people I 
look to for mentorship and wisdom, who's a patriot, who's 
dedicated himself to a cause greater than his own self-
interest, and that's Senator John McCain. He took the time to 
come to Colorado to see, firsthand, what's happening here, and 
I look forward to our partnership continuing as we face a lot 
of the challenges that our Nation has, but also, I think--what 
I love about John McCain is, he sees opportunities in those 
challenges. That's what I see in this great climate change 
challenge we face.
    John, I don't know if you wanted to add anything else, 
but----
    Senator McCain. I do not, Mr. Chairman, except to thank you 
again, and thank the witnesses, and thank everybody for coming 
today.
    Senator Udall. The subcommittee on National Parks stands 
adjourned.
    [Whereupon, at 1:18 p.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
